RECORD;

Doc. 29. HE 1

Page36 ot79

CM/ECF - nvd - District Version 6'1

Michelle Nguyen. Replies due by 21112015. (welsh, Martin) (Entered:
0112212015)
0112312015

198

0t/23120t5

199

EXHIBIT ( ) AMEND ED Exhib it l 6 coff ecting image for Exhi bit l 6 tn Doc
I I 9- 4 to 189 M OTI ON to Amend/Correct Complaint re Amended
Complaint, )r' .fo, Leave to File Second A mende d Complaint filed by Plaintiff
Michael Harkey (Posin, Mitchell) (Entered 0 1 123 t20 I 5 )

I

MINUTES OF PROCEEDINGS - Motion Hearing held on 112312015 before
Judge Richard F. Boulware,IL Crtrm Administratot: Blanca Lenzi;Pla
Cor-insel: Mitchett Posin, Esq.;Def Counsel: Patrick Byrne, Esq., Martin
IQekh, Esq., Marni Watkins, Esq', Chelsea Crowton, Esq', James Hffier'
Esq., Tess'Johnson, Esq.; Court ReporterlFTR #: Patty Ganci; Time of
Hearing: l0:45 - 1I:43 AM;Cottrttoom:7C'

plaintiff Michael Harkey is present. Wendy Nora, assistant to Mitchell Posin, is
hears
present at Plaintiffs tabie. The Court makes preliminary statements and
iepresentations of counsel regarding the pending motions'
For the reasons stated on the record at this hearing, IT IS IIEREBY
ORDERED that the member case2:14-cv-01266-RFB-GWF is STAYED'

Motionto Expunge Lis Pendens (filed
Expunge Lis
in member case2:14-cv-a1266-RFB-GWF) and 38 Motion to
pendens, 62 Motion to Extend Time, 97 Motion to set Aside Enty of Default,
to Set Aside
lOg M"ti* to Withdraw Enty of Default Judgment, 105 Motion
E t" of Default, 109 Motionio Set Aside Entry of Default, 156. Motion to Set
Aria. Entry of dffult, !59 Motion to Set Aside Entry of Defaulg and 189
were filed
Motion for Leave to Fiie Second Amended Complaint (all of which
in lead case 2:l 4-cv-00 I 77-RFB-GWF) are GRANTED'

IT IS FURTHER ORDERED that

30

IT IS FURTHER ORDERED that the Second Amended complaint

is

deemed filed as of January 23,2015'

IT IS FURTHER ORDERED thAt 118 MOtiON tO StTiKC, I22 MOtiON tO
176
st it 126 Motion to strike, 157 Motion to strike, 158 Motion to strike,
", gxpand Stay, and lgi Motion to Strike (all of which were filed in
lvtotionlo
lead case 2:14'Iu-00177-RFB-GWF) are

DENIED'

IT IS FURTHER ORDERED that 39 Motion to Dismiss (filed in lead case
case
2:14-cr-00177-RFB-GWF) and 28 Motion to Dismiss (filed in member
2:l 4 -cv -01266-RFB-GWF) are DEMED without prej udice.

lead
IT IS FURTHER ORDERED that 187 Motion to Extend Time (frled in

(filed in
case2:14-)v-00177-MB-GWF) and 33 Motion to Extend Time
moot.
as
DENIED
member case2:14-)v-01266-RFB-GWF) are

IT IS FURTHER ORDERED that the Defendants who have already been
Complaint by
served in this action shall file responses to the Second Amended
February 13,2015.

L++-^. tt^^c^.,A rronnrrrrc ^^,,/noi-lrin/T)lrfRnt n111O)?641 005

10ji8-T, 1

1-1

91412017

CMIECF - nvd - District Version 6.1

Page

3'l oI'19

IT IS FURTHER ORDERED that the filing of the discovery plan and
scheduling order, and the commencement of discovery generally, is STAYED
until ten days after the Court's rulings regarding any Motions to Dismiss that
are filed by Defendants.(No image attached) (Copies have been distributed
pursuant to the NEF - BEL) (Entered: 0112612015)

0U272015

200 (Refiled) REPLY to 67 and 68 Verified Petitions filed by Defendants Black
Knight Financial Services, LLC, Fidelity National Financial Inc. (Watkins,
Marni) (Entered: 0l 127 12015)

0v27120t5

20t DECLARATION of JAMES E. HEFFNER

re 200 Response to Motion,, ; in
Support of Reply in Support of Verified Petitions to Practice in This CASe
Filed on Behalf of Michael J. Gleason and James E. Heffner by Defendants

Black Knight Financial Services, LLC, Fidelity National Financial Inc.
(Wa&ins, Marni) (Entered: 01 /27 1201 5)
02108120ts

242 MOTION to Withdraw as Attorney by Mitchell Posin by Plaintiff Michael
Harkey. (Posin, Mitchell) (Entered: 021 08 1201 5)

02109/201s

203

MINUTE ORDERIN CHAMBERS of the Honorable Magistrate Judge
George Foley, Jr, on 21912015. By Judicial Assistant: Julia Wright. RE:202
MOTION to Withdraw as Attorney and to Stay Proceedings Until Plaintiffis
Able to Retain Substitute Counsel by Mitchell Posin. Motion Hearing set for
'Wednesd av. March 11.201.5,
1:30 PM in LV Courhoom 3A before
Magisbate Judge George Foley Jr. (Copies have been dishibuted pursuant to
the NEF - JBW) (Entered: 0210912015)

02109120ts

204 FIRST NOTICE: of Non-Compliance with Special Order 109: that Mark
S. Basula andMiebaelJ.GlealgL are in violation of Special Order 109.
Participation in the electronic filing system became mandatory for all attorneys
effective January l, 2006.
You are required to register for the Courts Case Management and Electronic
Case Filing (CI,I/ECF) program and the electronic seryice of pleadings.

Attorney advised to visit the Courts website at www.nvd.uscourts.gov, then
select ATTORNEY REGISTRATION located in the middle of the web page
to register.
(no image attached) (RFJ) (Entered: 02109/2015)
02t09/2015

0211012015

02n01201s

205 MOTION to Stay Deadlinefor Responding to Plaintifs second Amended
Complaint by Defendants Merscorp Holdings, Inc., Mortgage Electronic
Registration Systems, Inc. (MERS). (Byrne, Patrick) (Entered: 021 09 1201 5)
206 JOINDER to205 MOTION to Stay Deadline for Responding to Plaintiffs
Second Amended Complaint filed by Defendant Safeguard Properties, LLC.
(Burden, Jack) Linked to motion. (ASB) (Entered: 02/l0DA15)
207

JOINDER to205 MOTION to Stay Deadlinefor Responding to Plaintiffs
Second Amended Complaint; filed by Defendants Christina Allen, Earl
Beutler, Eve Beutler, Black Knight Financial Services, LLC, Fidelif National

r^x^-.tl^^$^rrrl rrcanrrrrc.n.r/noi-hin/T)ktRnt nll1O)7641005 10338-T, I 1-l

914120t7

Page 3E

CMIECF - nvd - District Version 6.1

ot'/Y

(DC)
Financial Inc, Shoua Moua. (Heffner, James) Modified to correct filers'
(Entered: 0211012015)
0211012015

No
208 Mail Returned as Undeliverable re 196 Order, addressed to Joseph Noel'
New Address, Did Not Resend. (SLR) (Entered: 0211012015)

0211012015

209

MOTION to Stay Deadline for Responding to Plaintiffs Second Amended
Complaint by Defenaant Michelle Nguyen. (Welsh, Martin) (Entered:

02lt0l20ts)
0211012015

0211012015

0211212015

udge
210 MINUTE o RDER IN CHAMB ERS of the Honorable Magistrate J
RE: 203
Hauser
Ro
bson
George F oley JI, on 2l 1 0120I 5 By Deputy Clerk:
will be
Minute Order Setting Hearing on Moti on. The Motion to Withdra w 2p
1 I 20 I 5 is
heard by the Disfrict Judge. Accordingly , the hearing set for March
pursuant to
hereby vacated .(no image attached) ( Copies have been distributed
the NEF RH) (Entered 021 I 0120 I s)

2t1 JOIND ER to 205 M OTI ON to

Stay Deadline for Responding to

Plaintif s

Credi t
Second A mended Complaint filed by Defendants Kimberly Clark,
DLJ Mortgage Capital,
S uisse First B oston Mortgage Securities Corporation,
(Crowton,
Inc., Bill Koch, Select Portfolio Servicing, U .s. Bank, N .A..
Chelsea) (Entered: 021 l0 l20l 5)

Posin, filed
212 RESPONSE to 202 MOTI ON to Withdraw as Attorney by Mitchell
,s
Miche lle Nguyen
by Defendant Mi chelle N guyen. named AS Defendant
,s
Replies
Conditional Opposition to Plaintifs Counsel Motio n to Withdraw
(Entered:
due by 2t22120 I 5 ( Attachments: # I Exhibit I )(Welsh, Martin)
021121201s)

0211312015

0211312015

0211312015

0211312015

0211312015

021t312015

'.x^.

identifies all
CERTIFICATE of Interested Parties filed by Ear I Beutler that
Bryce
Affrliate
Other
case
parties that have an intere st ln the outcome of this
Inc for Ear I
D B eutler, Other Affiliate National T itle Insurance of N ew York,
Beutler added. . (Heffirer, James) (Entered: 0211312015)
2t4 CERTIFI CA TE of Interested Parties fil ed by Eve Beutler that identifies all
Bryce
parties that have an interest m the outcome of this case. Other Affiliate
Eve
for
Inc.
D Beutler ) Other AffiIi ate National Title Insurance ofNew York,
Beutler added. (Heffner , James) (Entered: 02lt 3120 1 5 )
no
2t5 CERTIFICATE of Interested Parties filed by Christina Allen. There ure
case . (Heffrrer,
known interested parties other than those participating in the
James) (Entered: 021 13 l20l 5)

213

There are no known
216 CERTIFICATE of Interested Parties filed by ShouaMoua'
. (Heffirer, James)
interested parties other than those participating in the case
(Entered: 0211312015)
217-

LLC,
MOTION to Dismiss by Defendants Black Knight Financial services,
fia"firy National Finantial Inc. Responses due by 31212015. (Heffirer, James)
(Entered: 0211312015)

Responses due
218 MOTION to Dismiss by Defendants Earl Beutler, Eve Beutler.
iv-liazot5. (Attachments: # I Supplement Request for Judicial Notice)
(Heffner, James) (Entered: 021 13 1201 5)

u^^T ^rrzl ,rcnnrrrtc -^rrlnai-hin/T)lrrRnt

n121

0)7641 005'l 0i38-L l 1-1

91412017

Page39 ot79

CM/ECF - nvd - District Version 6.1

0211312015

219

MOTION to Dismiss by Defendants Christina Allen, Shoua Moua. Responses
due by 31212015. (Heffner, James) (Entered: 0211312015)

021131201s

220

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware,II,
on211312015.

IT IS HEREBY ORDERED that a ruling on202 Motion to Withdraw as
Attorney is deferred. tT IS FURTHER ORDERED that counsel for Plaintiff
shall have until March 16, 2015 to file a certification with the Court stating that
notice has been served on his client, consistent with Local Rule IA 10-6(b).

IT IS FURTHER ORDERED that 205 and209 Motions to Stay

are

GRANTED in part and DENIED in part. Defendants' deadline to respond to
Plaintiffs Second Amended Complaint is STAYED pending the Court's ruling
on202 Motion to Withdraw as Attorney. Once the Court has ruled on the
motion to withdraw as attorney, a further order will be issued clarifring the
briefing schedule.
(Copies have been distributed pursuant to the NEF - BEL) (Entered:
021t31201s)
02117120t5

221

Mail Returned as Undeliverable re 199 Minutes of Proceedings, addressed to
Joseph Noel. No new address, did not resend. (DC) @ntered:02117/2015)

02118120t5

222

MINUTE ORDER IN CHAMBERS Regarding the Requirements of Klingele
v. Eilrenberry ffid Randv. Rowland as to 218 MOTION to Dismiss ,217
MOTION to Dismiss,219 MOTION to Dismiss : Opposition due fourteen
(14) days from the date of this Minute Order, and reply due seven (7) days after
the filing of the opposition. Signed by Judge Richard F. Boulware,II on
2118115. (Copies have been distibuted pursuant to the NEF - ASB) (Entered:
02/181201s)

0212312015

223

Mail Returned as Undeliverable re203 Minute Order Setting Hearing on
Motion, addressed to Joseph Noel. No new address, did not resend. (DC)
(Entered: 02/2412015)

03103120ts

224

Mail Returned as Undeliverable re2Z2 Klingele Minute Order, addressed to
Joseph Noel. No new address. Did not resend. (DC) (Entered:0310412015)

031041201s

225

RESPONSE to 219 MOTION to Dismiss ,217 MOTION to Dismiss , 21 8
MOTION to Dismiss , filed by PlaintiffMichael Harkey. Replies due by
311412015. (Attachments: # Exhibit Exhibits A, B and C)(Posin, Mitchell)
(Entered: 03/0412015)

l

0310s12015

226

RESPONSEto2Ig MOTION to Dismiss ,217 MOTION to Dismiss,218
MOTION to Dismiss , filed by Plaintiff Michael Harkey. Replies due by
3/1512015. (Auachments: # I Exhibit Exhibits A, B and C)(Posin, Mitchell)
(Entered: 0310512015)

03/061201s

227

REPLY to Respons e to 279 MOTION to Dismiss filed by Plaintiff Michael
Harkey. SECOND Amended Response correcting page 15, lines I l-16 (Posin,
Mitchell) (Entered: 03 1061201 5)

L++*c.//o^f nrrrl rrcnnrrrtc onrr/noi-hin/DktRnf nll1O)1541005

10i38-L l

1-1

9/412017

Page 4U

CMIECF - nvd - District Version 6.1

03ltrl20r5

228

03/161201s

229

0311612015

oI

19

Undeliverable re220 Minute Order addressed to Joseph
Noel. No new address, did not resend. (DC) (Entered:0311312015)

Mail Returned

as

bY
CERTIFICATE OF SERVICE re202 MOTION to Withdr aw as Attorney
Modified
Mitchell Posin ; filed by Plaintiff Michael Harkey' (Posin, Mitchell)
event tvoe. (.ASB) (Entered: 0311612015)

Black
230 REPLY to Respons e to 217 MOTION to Dismiss filed by Defendants
(Heffner,
Knight Financial Services, LLC, Fidelity National Financial Inc.
James) (Entered: 03 I 161201 5)

03tr612015

231

03tr6l20ts

232

Christina
REPL Y to Response to 219 MOTI ON to Dismiss filed by Defendants
Allen, Shoua Moua. (H effner , J ames) (Entered 031 I 612 0 1 5)
Earl
REPL Y to Response to 218 M OTI ON to Dismiss filed by Defendants
Beutl er Eve Beutler (Heffner t James) (Entered 031 I 6120 I 5 )
)

03126120ts

04l0y20ts
0sl0620ls

0s1291201s

0s/29120rs

06/0812015

061111201s

0611ll20rs

233

ORDER Granting 202 Motion to Withdraw as Attorney and to Stay
Proceedings. Mitchell L Posin withdrawn from the case as to PlaintiffMichael
Order of
Harkey. IiIs Further Ordered That This Case is Stayed Until Furttrer
to Dismiss
This iourt. It Is Further Ordered thal2l7 ,2J3., and2l9 Motions
Amended
5lll20l5.
are Denied without Prejudice. status Report Deadline:
F.
Comptaint Deadline: S[ttZOtS. Case stayed. Signedby Judge Richard
pursuant to the NEF
Boulware, \t on3l26l20l5. (Copies have been distributed
- DC) (Entered: 0312712015)

to Joseph Noel. No
234 Mail Returned as undeliverable reu.order, addressed
New Address, Did Not Resend. (DC) (Entered: 04102/2015)
Jr on behalf of
23s NOTI CE of Appearance filed by attorney Thomas Stafford,
Plaintiff Michael Har key (Stafford, Thomas) Modified to reflect c orrect
party- attorney ass ociation on 6n u20 1 5 (RFO. @ntered 0s106120 I s)
611 2120 1 5 S igned
ORDER TO SH o w CA U SE. Show Cause Response due by
been distributed
by J udge Richard F Boulware il on sl29l20 I 5 (Copies have
pursuant to the NEF D c) (Entered 0s129120 1 5 )
o RDERED that Plaintiff Michael
237 AMEND ED ORDER TO SH o w CA USE.
20 1 5 w hy he should
Harkey shall show cause m wd ting no later than June I 2,
for failing to
not be sanctioned, up to and incl uding dismi ssal of this case,
by Judge Richard F
comply with the Court s Order of March 26, 20 1 5 S igned
to the NEF
Boul warg, n on 512911 5 (Copies have been distributed pursuant
MMM) (Entered: 0512912015)
Cause, addressed to
238 Mai I Returned as Undeliverable re 237 Order to Show
(Entered
06/09120 1 5)
(TR )
J oseph N oel N o new addres did not resend

236

(Attachments # I
REPL Y to Response to filed by Plaintiff Michael Harkey
Exhibit, # 2_ Exhi bit) (s tafford, Thomas ) (Entered 0 6lt I t2 0 1 s)
Attorney was
240 ERROR: Motion filed in error by attorney. CORRECTION:
Attorney'
i*prop"rty linked to parties during filing of Notice of Appearance by
terminated'
Motion
The record reflects the correct attorney -party association'

239

htrnc'//enf nrra rrccnrrrtq onv/coi-hin/T)ktRnt.nl?102364100510338-L

1 i-1

914/2017

CM/ECF - nvd - District Version 6.I

Page

4) ot'19

Modified
on 6lll/2015. (RFO (Entered:

061 1 1 1201 5)

071131201s

241 NOTICE of Change of Attorney on behalf of Plaintiff Michael Harkey. (Posin,
Mitchell) (Entered: 07 I 13 l20l 5)

07n3zals

242

MOTION to Stay re 233 Order on Motion to Withdraw as Attorney,,, Order on
Motion to Dismiss, 241 Notice of Change of Attorney,237 Order to Show
Cause, filed by Plaintiff Michael Harkey. (Posin, Mitchell) (Entered:
07lt3l20ts)

07113120t5

243

DECLARATION of PlaintiffMichael Harkey re239 Reply to Response to
Motion, 242Motionto Stay, 241 Notice of Change of Attorney; filed by
Plaintiff Michael Harkey. (Posin, Mitchell) (Entered: 07 / 13 l20l 5)

07ll3l20ts

244.

THIRD AMENDED COMPLAINT with Jury Demand against Christina Allen,
Bryce D. Beutler, Earl Beutler, Eve Beutler, Jesse Bewley, Black Knight
Financial Services, LLC,CSMC Mortgage Backed Trust 2007-6, Kimberly
Clark, Credit Suisse First Boston Mortgage Secwities Corporation, DLJ
Mortgage Capital,Inc., Earl and Eve Beutler Family Trust, Executive Trustee
Servicei,Inc. Rdam Fenn, Fidelity National Financial Inc, Fidelity National
Title Company , V anessa Gonzales, B ill Koch, L SI Title Agency Inc.,
Merscorp Holdings, Inc., Julee Metters, Mortgage Electronic Registation
Sy stems, Inc. (MERS) Shoua Moua, N ew Century Mortgage co{p. Michelle
Nguyen, Joseph N oel, Patick Pitbnan, Mitchell Posin, Quality Loan Service
Corporation, Safeguard Properties, LLC, Select Portfolio S ervlclng, U .s. Bank,
N .A. , US N ational Bank, w ells Fargo Bank, N .A. t fi1ed by Michael Harkey
No changes to parties. Proof of servlce due by I I I I 01201 5 (Attachments: #
a
a
Exhibit List, # z Exhibi t I , # J Exhibit 2 , # 4 Exhibit J # 5 Exhibit 4, # 6
Exhibit 5 # 7 Exhibit 6, # 8 Exhibit 7 , # 2 Exhibit 8 , # 10 Exhibit 9 #
a
Exhibit I 0 t # 12 Exhibit I I 1 ) # 13 Exhibit 1 4- I 7 # I 4 Exhibit I 8 2 I # l5
Exhibit 22 ) # 16 Exhibit 2 ) ) # l7 Exhi bit 24, # 18 Exhibit 25, # t9 Exhibit 26
# 20 Exhibit 2 7 , # 21 Exhibi t 2 8 # 22 Exhibit 28A, # 23 Exhibit 288, # 24
a
Exhibit ) 9 t # 25 Exhibit J o) (Po sin, Mitchell) (Entered 07 I I 3 t20I 5)

I

ll

RESPONSEto242 Motion to stay, filed by Defendant Michelle Nguyen.
Replies due by 713012015. (welsh, Martin) (Entered: 0712012015)

071201201s

245

07/2212015

246 MINUTE ORDERIN CHAMBERS of the Honorable Richard F. Boulware,II,

on7l22l20l5.
IT IS ORDERED that a hearing regarding 241 Notice of Change of Attorney
and242Motion to Stay is set for Tuesday, August 4,2015 at LL:00 AM in
LV Courtroom 7C before Judge Richard F. Boulware,II. Attorney Thomas
Stafford, Jr. shall be present at this hearing, as leave of Court is required for an
attorney to withdraw after appearing in a case. See Local Rule IA l0-6(b)'
(Copies have been distributed pursuant to the NEF - CVL) (Entered:
07/22/2015)
0712812015

247

t+^^. t t^^r -',i rrannrrrro ^n'r/noi-hin/T'llrfPnf n121O)7641 005'l 033R-L 1

I -1

91412017

Page 4'2

CM/ECF - nvd - District Version 6.1

oI /9

MOTION to Appear Telephonically at Hearing by Defendants Christina Allen,
Earl Beutler, Eve Beutler, Black Knight Financial Services, LLC, Fidelity
National Financial Inc, Shoua Moua. Responses due by 811412015.
(Attachments: # I Declaration of Jame E. Heffner)(Heffner, James) (Entered:
07t28l20rs)
071291201s

071301201s

248 MOTION to Strike 244 THIRD AMENDED COMPLAINT; filed bv
Defendant Safeguard Properties, LLC. Responses due by 811512015. (Burden,
Jack) (Entered: 07 129 120 I 5)
249 REPLY to ?45 RESPONSEIo242 Motion to stay and246 MINUTE ORDER
IN CHAMBERS re: Hearing set for 8l4ll5;filed by Plaintiff Michael Harkey.
(PS) (Enter ed: 07 /301201 5)

07l3v20ls

250 MOTION for Leave to Appear Telephonically. Attomey: Bridget Bums. by
Defendant Michelle Nguyen. (welsh, Martin) (Entered: 0713112015)

07l3ll20rs

251

JOINDER to248 Motion to strike; filed by Defendant Michelle Nguyen.
(Welsh, Martin) (Entered: 07 /31 /201 5)

0810t/2015

252

MINUTE ORDERIN CHAMBERS of the Honorable Richard F. Boulware,II,
on8/112015.

IT IS ORDERED, good cause appearing, that counsel James E' Heffirer's247
Motion to Appear Telephonically and counsel Bridget Bums' 250 Motion to
Appear Telephonically are GRANTED.
IT IS FURTFIER ORDERED that attorneys James E. Henner and Bridget
Bums are instructed to call telephone number: Q02) 865'4925, access code:
123456,5 minutes prior to the hearing time of 11:00 AM on Tuesday, August
4,2015'.The Court will join the call and convene the proceedings. The call
must be made on a land line. The use of a cell phone or speaker phone during
the proceedings is prohibited.

\-

(Copies have been distributed pursuant to the NEF - BEL) (Entered:
08/03/201s)
0810412015

253 MINUTES OF PROCEEDINGS - Motion Hearing held on 814120t5 before the
Honorable Richard F. Boulware,II. Crtrm Administrator: Blanca Lenzi;Pla
Counsel: Thomas Staffird, Esq., Michael Harkey, Esq., Pro Se; Def Counsel:
Tess Johnson, Esq.,lor Jack Brtrden, Esq., Gary Finkfor Kristin Schuler'
Hintz, Esq., Justii Shirofl, Esq., for Patrick Byrne., Esq., Chris swrfi, Esq., foy
Chelsea trowton, Tesq.-; AppZaring Telephonically: Bridget Burns, Esq', and
James Hefner, Esg.; court ReporterlFTR #: Patty Ganci; Time of Hearing:
I l: I I - I l:40 PM Courtroom: 7C.
The Court makes preliminary statements and hears representations of counsel
and Mr. Harkey regarding Plaintiffs 2!2Motionto Stay te233 Order on
Motion to Withdraw as Attorney, Order on Motion to Dismiss, 237 Order to
Show Cause, 241 Notice of Change of Attorney. For the reasons stated on the
record at the.hearing,IT IS ORDERED that Attorney Thomas Stafford, Esq', is

Ltt-c.//anf nrrd rrcnnrrrtc .rnv/coi-hin/DktRnt nl?102i641005 10338-L 1

1-1

91412017

Page43 of79

CMIECF - nvd - District Version 6.1

excused as attorney of record for Plaintiff. Mr. Harkey addresses the Court.
The Court GRANTS Plaintiffs request to proceed in this case, Pro Se'

IT IS FURTHER ORDERED that the Stay of the Case shall be LIFTED' The
Defendants shall file a responsive pleading to the Third Amended Complaint
by due August 19,2075.
IT IS FURTHER ORDERED that Defendant Safeguard Properties 248. Motion
to strike re: 244 Third Amended complainr is DENIED without Prejudice.

IT IS FURTHER ORDERED that16T Order is vAcATED; the parties shall
not
submit a proposed scheduling order by August 18, 2015. The Court shall
stay the case pending any dispositive motions filed'
(Copies have been distributed pursuant to the NEF - BEL) (Entered:
08/08/201s)
08/10/201s

08ll0D01s

N oel. No
2s4 Mail Returned as Undeliverable re252 Order, addressed to Joseph
New Address, DidNot Resend. (DC) (Entered: 08/10/2015)
N oel. N o
25s Mail Returned as Undelivera ble re 246 Order Addressed to Joseph
N ew Address Did Not Resend. (DC ) (Entered: 08/1 4D 0 I 5 )

08111120t5

addressed to
2s6 Mai Returned uts Undeliverable re 2s3 Order on Motion to Stay
7/2 0 1 5)
Joseph N o el. N o new address, did not resend. (TR) @ntered 08/l

08118/201s

2s7

\-

MOTION to Dismiss re: Third Amended complaint; filed by Defendant
(Entered:
Michelle Nguyen. Responses due by 91412015. (Welsh, Martin)
08/18/2015)

081181201s

08ll8l20ls
08lt8l20ls

Kimberly
258 PROPOSED Discovery Plan/S cheduling Order frled by Defendants
DLJ
Clark, Credit Suisse First Boston Mortgage Securities Corporation,
Bank, N .A.
Mortgage Capital Inc., Bill Koch, Select Portfolio Servicing, U S
(Nitz, Dana) (Entered: 08/1 8D01 s)

Michelle
259 DECLARATION re257 Motion to Dismiss ; filed by Defendant
Nguyen. (Welsh, Martin) (Entered: 08/l 8/201 5)

of Klingele
260 MINUTE o RDER IN CHAMBERS Regarding the Req uirements
Oppositi on
v Eikenberry and Rand v. .lR owland as to 257 Motion to Dismi ss
and reply due seven
d ue fourteen (1 4 ) days from the date of this Minute Order
(7) day s after the filing of the oppo sition. Signed by Judge Richard F
J)
Boulware,II. (CoPies have been distributed pursuan t to the NEF P-F
(Entered: 08/18/2015)

0811812015

261

by Plaintiff
PLAINTIFF'S PROPOSED Discovery Plan/Scheduling order filed
Michael Harkey. (DC) (Entered: 08/18/2015)

08lt9l20ls

262

Properties,
JOINDER to 257 Motion to Dismiss ; filed by Defendant Safeguard
LLC. (Burden, Jack) (Entered: 08/1912015)

08/19/2015

263

by
MOTION to Dismiss re: THIRD AMENDED COMPLAINT; filed
(Burden,
91512015.
by
due
Defendant Safeguard Properties, LLC. Responses
Jack) (Ente red 081 19 l20l 5)

L*no.ilao€mrrt rrannrrrfc -nrr/nci-hin/T)lrtRnt nt'710)764100510?1R-L 1

1-1

9/4120t'l

CM/ECF - nvd - District Version 6.1

08119120ts

264

44 oI'/9

Page

MOTION to Dismiss re: THIRD AMENDED COMPLAINT; filed by
Defendants Merscorp Holdings, Inc., Mortgage Electronic Registration
Systems,Inc. (MERS). Responses due by 91512015. (Byrne, Patrick) (Entered:
081191201s)

\-

08l19l20rs

26s MOTION to Dismiss re: THIRD AMENDED COMPLAINT; filed by
Defendants Earl Beutler, Eve Beutler. Responses due by 91512015.
(Attachments: # 1 Request for Judicial Notice)(Heffirer, James) (Entered:
08119120ts)

08t1912015

266

JOINDER to 264 Motion to Dismiss ; filed by Defendants Earl Beutler, Eve
Beutler, (Attachments: # I Request for Judicial Notice in Suppport of
Defendants Eve and Earl Beutler's Joinder in Motion to Dismiss)(Heffner,
James) (Entered: 08/ 19 1201 5)

081t9/20ts

267

MOTION to Dismiss re: THIRD AMENDED COMPLAINT; filed by
Defendants Black Knight Financial Services, LLC, Fidelity National Financial
Inc. Responses due by 91512015. (Heffner, James) (Entered: 08ll920l5)

08lt9l20ts

268 JOINDER to264 MOTION to Dismiss re: THIRD AMENDED
COMPLAINT; filed by Defendants Black Knight Financial Services, LLC,
Fidelity National Financial Inc. (Heffrrer, James) (Entered: 0811912015)

08l19l20ts

269 MOTION to Dismiss re: THIRD AMENDED COMPLAINT; filed by
Defendants Christina Allen, Shoua Moua. Responses due by 91512015.
(Heftrer, James) (Entered: 081 l9l20l 5)

08119120rs

270 JOINDER to264 MOTION to Dismiss re: THIRD AMENDED
COMPLAINT; filed by Defendants Christina Allen, Shoua Moua. (Heffirer,
James) (Entered: 08/ I9l20l5)

081201201s

271

MINUTE ORDERIN CHAMBERS Regarding the Requirements of Klingele
v. Eikenberry ffid Randv. Rowland asto263 ,K!,265 ,267 and269
MOTION to DISMISS:
Opposition due fourteen (1a) days from the date of this Minute Order, and
reply due seven (7) days after the filing of the opposition. Signed by Judge
Richard F. Boulware, II. (Copies have been distributed prusuant to the NEF RFJ) (Entered: 08120 l20l 5)

081241201s

272

JOINDER tO 270 JOINDER tO 264 MOTION tO DiSMiSS TE: THIRD
AMENDED COMPLAINT filed by Defendants Credit Suisse First Boston
Mortgage Securities Corporation, DLJ Mortgage Capital,Inc., Bill Koch,
Select Portfolio Servicing, U.S. Bank, N.A.. (l'{itz, Dana) (Entered:
081241201s)

081241201s

273

JOINDER to 257 MOTION to Dismiss re: Third Amended Complaint; filed by
Defendants Credit Suisse First Boston Mortgage Securities Corporation, Bill
Koch, Select Portfolio Servicing, U.S. Bank, N.A.. (l'tritz, Dana) (Entered:
081241201s)

08/24/2015

L*-^. tt^^c^,,A

274

Undeliverable re?60 Klingele Minute Order, addressed to
Joseph Noel. No New Address, Did Not Resend. (DC) (Enteted:0812512015)

Mail Returned

as

rroanr-.ro -^.r/nci-hin/T)lrtPnt rt1110')76410051033R-T,

1

1-1

9/412017

Page 45

CM/ECF - nvd - District Version 6.1

oI

19

08l2sl20rs

27s

VERIFIED PETITION for Permission to Practice Pro Hac Vice by Robert M.
Brochin and DESIGNATION of Local Counsel Patrick G. Byme (Filing fee $
250 receipt number 0918-3791419) filed by Defendants Merscorp Ho ldings,
Inc., Mortgage Electronic Registration Systems,Inc. (MERS) . (Byrne, Patrick)
Corrected image 277 attached on 8n7.2015 (DKJ).(Entered: 0812512015)

081261201s

276

Mail Returned

08127120ts

277

NOTICE of Corrected Image/Document re275 Verified Petition, by
Defendants Merscorp Holdings, Inc., Mortgage Electronic Registration
Systems,Inc. (MERS). (Service of corrected image is attached). (Byrne,
Patrick) (Entered: 08/27 1201 5)

0812112015

278

re2ll

Klingele Minute Order, addressed to
Joseph Noel. No New Address, Did Not Resend. (DC) (Entered: 0812612015)
as Undeliverable

vEzuFIED PETITION for Permission to Practice Pro Hac vice by clay M.
Carlton and DESIGNATION of Local Counsel Patick G' Byme (Filing fee $
250 receipt number 0978-3794408) filed by Defendants Merscorp Holdings,
Inc., Mortgage Electonic Registation Systems,Inc. (MERS) . (Byrne, Patrick)
(Entered: 0812712015)

JOINDER to264 Motion to Dismiss ; filed by Defendant Michelle Nguyen'
(Welsh, Martin) (Entered: 0812812015)

08128120t5

279

081281201s

280 JOINDER to265 Motion to Dismiss ; filed by Defendant Michelle Nguyen'
(Welsh, Martin) @ntered: 08128 1201 5)

08t2812015

28r JOINDER to 267 Motion to Dismiss ; filed by Defendant Michelle Nguyen'
(Welsh, Martin) (Entered: 08128/2015)

0812812015

282 JOINDER to269 Motion to Dismiss ; filed by Defendant Michelle Nguyen'
(Welsh, Martin) (Entered: 081281201 5)

08128120ts

283

JOINDER to 261 MOTION to Dismiss re: THIRD AMENDED
COMPLAIN}, nt.a by Defendant Safeguard Properties, LLC. (Burden, Jack)
@ntered: 0812812015)

08128/2015

284 FIRST MOTION to Extend Time to Respond re:264 ,265 ,2.57 ,and269
Motions to Dismiss; filed by PlaintiffMichael Harkey. (DC) (Entered:

}stvnars)
0813t12015

0910412015

28s

SCHEDULING ORDER. Discovery due by 41112016. Motions due by
5l2l20l6.Proposed Joint Pretrial order due by 61112016. signed by Magistrate
Judge George Foley, Jr on8l3ll2015. (Copies have been distibuted pursuant
to the NEF - DC) (Entered: 08/31/2015)

286 ORDER granting 275Yerified Petition for Permission to Practice Pro Hac
vice for ntto-ry nouert M. Brochin as to Merscorp Holdings, Inc. and r
Mortgage Electronic Registration Systems, Inc. (MERS) and approving Patrick
G. Byml as Designation of Local Counsel. Signed by Judge Richard F.
Boulware, lI on 9 I 412015.
Any Attomey not yet registered with the Court's CMIECF System shall submit
a Registration Form on the Court's website www.nvd.uscourts.gov
(Copies have been distributed pursuant to the NEF - DC) (Entered:
a9l08l2o1s)

hrr-c.//enf nrrrt rrcnnrrrrc onv/eoi-hin/T)kfRnt nl?1023641005 10338-L

1 l-1

91412017

Page 46

CMIECF - nvd - District Version 6'1

oI'19

Undeliverable re 285 Scheduling Order addressed to Jo seph
Noel. No New Address, Did Not Resend. (DC) (Entered: 09/08/2015)

091081201s

287

Mail Returned

09111120ts

288

MINUTE ORDERIN CHAMBERS of the Honorable Richard F. Boulware,II,
on 9/l ll20l5.

as

IT IS ORDERED that284 Motion to Extend Time is GRANTED' Plaintiff
Michael Harkey shall have until $eptember 23, 2015, to respond to 263 ,2-f!.,
265 ,267 , and269 Motions to Dismiss.
(copies have been distributed pursuant to the NEF - BEL) (Entered:
09111120ts)
09t2112015

0912212015

289 Mail Returned as Undeliverable re 288 Minute Order, addressed to Joseph
Noel. No New Address, Did Not Resend. (DC) (Entered:0912112015)
Hac
290 ORDER granting 278 Verified Petition for Permission to Practice Pro
Vice for lrc*.VCtuy M. Carlton for Merscorp Holdings,Inc. and Mortgage
Byrne
Electronic Registation Systems,Inc. (MERS) and approving Patrick G'
II on
as Designatioi of Local Counsel. Signed by Judge Richard F' Boulware,
9122120t5.

Any Attorney not yet registered with the Court's CMIECF System shall submit
a Registration Form on the Court's website www.nvd.]rscoq4s.gov
(Coples have been distributed pursuant to the NEF - DC) (Entered:
09122t20ts)

\-

0912312015

291

to
JOINDER to269 Motion to Dismiss, 265 Motionto Dismiss,M-Motion
to
Dismiss, 267 Mononto Dismiss,257 Motion to Dismiss, 264 Motion
Dismiss ; filed by Defendant Michelle Nguyen, Quality Loan Service
docket
Corporation and Vanessa Gonzales. (Schuler-Hintz, Kristin) Modifi ed
5

0912312015

292

filed by
RESPONSE to 257 ,29- ,265 ,267 ,264 ,263 Motions to Dismiss,
plaintiff Michael Harkey. Replies due by 101312015. (DC) (Entered:

09l23t2ors)
0912312015

101051201s

t0l0s1201s

Incoming
293 REQUEST for Leave to SuPPlement Response with Assistance of
(DC)
Counsel by Plaintiff Michael Harkey , Responses due by l0ll0l20l5.
(Entered: 0912312015)
Merscorp
294 REPLY to Respons eto 264Motion to Dismiss filed by Defendants
(MERS)'
Inc.
Ho ldings, Inc., MortgafaElecnonic Re gistration Sy stems,
(Stunnan, Erica) (Entered: l0l 05 1201 5)
Order on Motion
29s TRANSCRIPT of Proceedings, 253 Order on Motion to Stay,
Judge
to Strike, Motion Hearing, Case Stay Lifted, held on8l4l20l1 before
Richard F. Boulware, II. Court Reporter : Patricia L. Ganci
public terminal
patry ganci@gmail.com. TranscriPt maY be viewed at the court
Order
TranscriPt
or purchased through the Court RePorter usmg the court's
form available on our website, at www.nvd.uscourts.gov, before the deadline
for Release of TranscriPt Restriction. After that date it maY be obtained
through the Court RePorter or PACER Redaction Request due 1012612015'

L+t-c.//pnf nrrrt rrcnnrrrrc onv/eoi-hin/DktRntnl?10?i64'100510338-L

I l-1

91412017

CM/ECF - nvd - District Version

Page

6'l

Redacted Transcript Deadline set

for

1115120 15. Release

Restriction set for 11312016' (PG) (Entered:

1

4l or 19

of TranscriPt

0l0sl20ts)
chelle NguYen.

REPLYtoResponseto2g3MotionfiledbyDefendantMi
(w elsh, Martin) (Entered: I 0/05/201 5)
to Dismiss, 265 Motion to Dismiss, 267.
297 REPL Y to Re sponse to 269 Motion
Ear I Beutler t Eve
Motion to Dismi S S filed by Defendants Chri stina Allen,
National Financial Inc,
Beutler ) B lack Knight Financial Services, LLC, Fidelity

296

t01051201s

r0t0sl20t5

1 s)
Shoua Moua (Heffrrer ) J ames) (Entered I 0l0sl20

Dismiss filed by Defendant Safeguard
298 REPL Y to Response to 263 Motion to
s12 0 I 5 )
Properties, LLC. (Burden, Jack) (Entered I 0/0
to Dismiss Plaintiffs Third
2e2 JO INDER to 294 Reply to Response to Motion t
Clark, Credit Suisse F irst
A mended Complaint filed by Defendants Kimber ly
Capi hl, Inc., Bill
Boston Mortgage Securities Corporation, D LJ Mortgage
(Nitz, Dana) (Entered:
N
Koch, Select Portfolio Servicing, U S Bank, .A..

10105120t5

1010612015

l0l06l20ts)
Beutler
Motion, filed by Defendants Christina Allen, Ear I
304 RESP ONSE to
Fidelity N ational Financial
Eve Beutler , Black Ituight Financial Services , LLC
5 (Heffirer J ames) (Entered
Inc, Shoua Moua. Replies due by I 0t22120 I

ry

1011212015

r0lr2l20ts)
rcl13nu,s

301

MerscorP Holdings, Inc.,
RESP ONSE to 293 Motion, filed by Defendants
Inc (MERS) Replies d ue by
Mortgage E lectronic Regi stration Systems,
I 0/1 J 120 I 5)
0123120 I 5 (Byrne, Patrick) (Entered
1

1012112015

w

t012612015

303

Motion for P artial Judgment on the Pleadings or Partial Summary on
Damages, S anctions, ad Findings
Judgment Request for Hearing to Assess
by P laintiff Michael HarkeY
Defendant' s Liabilities and to What Extent
(Entered: t 012 U20I 5 )
Responses due by 1 I I I 4120 I 5 (TR)
Cross

P leadings or Partial SummarY
CROSS M OTI ON for Partial Judgment on the
by Plaintiff Michael Harkey
Judgment on Basis of Fraud and RIC o V iolations
v) (Entered 1 0127 120 I 5 )
Responses due by t 1 l1 9120 1 5 (NE
Damages, Sanctions, and Findings on Extent
304 REQUEST for Hearing to Assess
by PlaintiffMichael Harkey'
of Dlfendants' Liabilities, Jointly and Swerally
(NEV) (Enlered: 1012712015)
S tunmary Jud gment,, filed by
3ps RESPON SE to 302 Motion for Partial
Electronic Registration
Defendants Merscorp Holdings, Inc., Mortgage
(Entered
1 1 I 1 9120 1 5 (Bvme. Patrick)
Systems, Inc (MER S ). Replies due by

1012612015

1y0912015

rU09l2ors)
11111120t5

3_06

111t212015

w

t++^n.ttonsn

rzl

Defendants Kimberly Clark,
JOIND ER to 305 Response to M otion; filed by
Coqporation, DLJ Mortgage
Credit Suisse First Boston Mortgage S ecunttes
U S Bank, N .A. (Nitz,
Capital Inc., B ill Koch, Select P ortfo lio Servicing,
Dana) (Entered: 1 1 l1 1 120I 5)
Judgment, frled by
RESPONSE to 303 Motion for Partial Summary
Elecffonic Registration
Defendants MerscorP Holdings, Inc., Mortgage

rrcnnrrrfc -nrr/noi-hin/T)lrtRnt n111O)?(t4100510338-T'

1 l-1

914/2017

yage +6 OT

CM/ECF - nvd - District Version 6'1

tv

(Byrne, Patrick) (Entered
Systems,Inc. (MERS). Replies due by lll22l20l5.

tltr2l2ols)
rrl16l20l5

308.

Defendant Safe guard
JO IND ER to 305 Response to Motion , filed by
15
Properties, LLC. (Burden, J ack ) (Entered 1 1 I I 6120 )

1/1 6l20ts

309

Judgment, filed by Defendant
RESPONSE to 302 Motion for Partial Summary
(Welsh, Martin) (Entered:
Michelle NguYen. RePlies due by 1112612015.

1

rrlr6l20ts)
1

1/1 81201s

1

1/l 8120 1 5

tyt9l20l5

7U2312015

\-.

ly23l20l5

Defendants Christina Allen,
JOINDER to 305 Response to Motion filed by
LLC, Fidelity
Earl Beutler Eve B eutler ) Black Kni ght Financial S ervices,
(Entered: I 1 I 1 8120 1 s)
N ational Financial Inc Shoua Moua. (Heffirer ) James )
filed by Defendants Christina Allen,
311 J OINDER to 307 Response to Motion
inancial Services, LLC, Fidelity
Ear I Beutler Ev e Beutler ) Black Knight F
(Entered: 1 rl I 8120 1 s)
N ational Financial Inc, Shoua Moua. (Heffrrer, James )
Judgment, JOIND ER to 307
312 RESPON SE to 302 Motion for Partial Summary
Nguyen. Replies due by
Response to Motion, frled by Defendant Michelle
on
I I 129120 1 5 (w elsh, Martin ) Modified do cket entry relationshiP
I u201201 5 (D KO. (Entered: I 1 I 1 9120 I s)
filed by Defendant Quality Loan Service
313 J OINDER to 307 Response to Motion
( Schuler-Hintz, Ikistin)
Corporation, Kevin M cCarthy and V anessa Gonzd,ez.
@ntered 1 1 123 120 I 5)

310

filed by Defendants v anessa Gonzales,
314 JOIND ER to 307 Response to Motion
( Schuler-Hintz, Kristin) @ntered:
Quality Loan S ervlce Corporation.
r11231201s)

11 12412015

315

rtl25l20l5

316

302 Motion by Plaintiff
M OTI ON for Leave to File Late Reply to Response to
1 s)
Michael Harkey (MMM) (Entered 1 I t24120
The * Amended
NOTI CE of intent to dismiss pursuant to FRCP 4(m).
t( To date no proper proof of
3120 I 5
Complaint* rn this action was filed on* 7 I 1
{.
AG ) ord Republic Title CompanY of
service has been filed AS to Credi t Suisse,
:*
FRCP 4(m)
N evada, N ancy Brod v Cooper Castle, LLP t Kevin R McCarftY s)
I
0
s12
(Entered: I U2
ssal deadline set for 1 212 5 l2 0 1 5 (DK.r)

dismi

1112512015

!L

r210212015

318

J oinders

Responses and
M OTION for Extension of Time to File Answers to
(NEV) @ntered: 1 113 0120 I s)
(F irst Req uest) by Plaintiff Michael Harkey
on of Time to File
ORDER Granting Plaintiffs 317 Motion for Extensi
shall have until I lt I 1201 6 to
Answers To Responses and J oinders. Plaintiff

w

r2102120t5

Signed by
309 and
Reply to Defendants' Responses 30s 3A
have been
(Copies
2t0212 0 I 5
Magistrate Judge George FoleY ) Jr. on 1
(Entered: 1 2t02120 I 5 )
distributed pursuant to the NEF NEv)
of the Honorable Richard F. Boulware,II,
319 MINUTE ORDER IN CHAMBERS
on l2l2l20l5

File is DENIED as moot' as
IT IS ORDERED that the J!! Motion for Leave to
by 111112016'
pursuant to the Court's

Orderbg , the deadline for Replies

httnc.//enf nvrt rrscnrrrfs oov/c.si-bin/DktRnt.ol?102364100510338-L

I i-l

due

9/412017

CM/ECF - nvd - District Version 6.1

Page 49

ol'79

(Copies have been distributed pursuant to the NEF - BEL) (Entered:
12/02/201s)
1210412015

320 MOTION for Extension of Time to Serve Defendants by PlaintiffMichael
Harkey. Responses due by 12/2412015.(NEV) (Entered: 12/0712015)

1210412015

321

REPLY to Response to 302 and 303 Motions and 309 and3l2 Joinders filed by
Plaintiff Michael Harkey. Q.IEV) (Entered: 12107/2015)

12t0412015

322

RESPONSEIo2ST ,23 ,264 ,265 ,267 ,269 Motions to Dismiss filed by
Plaintiff Michael Harkey. Replies due by 12/1412015. (IVEV) (Entered:
t2101/201s)

t2l04Djt5

323

MOTION for Leave to Supplement Response With Assistance of Incoming
Counsel by Plaintiff Michael Harkey. Responses due by 1212112015. (NEV)
(Entered: 12/0712015)

\-

12108120t5

324

ORDER Granting Plaintiffs 320 Motion for Extension of Timeto Sewe244
Amended Complaint. Plaintiff may enlist the aid of attorney Mitchell Posin to
determine which Defendants remain to be served. Proof of service due by
l/22/2016. Signed by Magistrate Judge George Foley, Jr. on 12108/2015.
(Copies have been distributed pursuant to the NEF: mailed copy of order to
Mitchell Posin; - NEV) (Entered: 12/08/2015)

12108120t5

32s

Mail Returned

t2t09l20ts

326 JOINDER 307 Response to Motion filed by Defendants Kimberly Clark,
Credit Suisse First Boston Mortgage Securities Corporation, DLJ Mortgage
Capital,Inc., Bill Koch, Select Portfolio Servicing, U.S. Bank, N.A.. (Crowton,
Chelsea) (Entered: 12/09 /2015)

w2tnu5

327

Minute Order addressed to Joseph
Noel. Envelope marked return to sender - unable to forward. No new address,
did not resend. (NEV) (Entered: 12122/2015)

t2/21/20ts

328

Mail Returned

01/l r 120 I 6

329

Submission of PROPOSED ORDER re Motion to Expunge Lis Pendens filed
by Defendant Select Portfolio Servicing . (Crowton, Chelsea) @ntered:

as Undeliverable re 318 Order addressed to Joseph Noel.
Envelope marked return to sender - unable to forward. No new address, did not
resend. (NEV) @ntered: 12109/2015)

Mail Returned

as Undeliverable re 319

as Undeliverable re 324 Order addressed to Joseph Noel.
Envelope marked return to sender - unable to forward. No new address, did not
resend. (NEV) (Entered: l2l22l20l 5)

0yty20t6)
0ll1sl20t6

330

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware,II,
on l/1512016.

IT IS ORDERED that 304 Request for Hearing to Assess Damages, Sanctions
and Findings on Extent of Defendants Liabilities is GRANTED.
IT IS FURTHER ORDERED that a hearing and oral argument is set for
Thursdav- Fe hnrarv 11 2016 at ?O PM iN LV Cowtroom 7C before Judge
Richard F. Boulware, II. The following motions will be addressed: 257 ,263

h+1-c.//e^f nrrrl rrcnnrrrfc onrr/noi-hin/T)lrtRnt n111O)?641005103?R-I

. 1 l-1

,

9/4t2017

Page 50

CM/ECF - nvd - District Version 6.1

ot'/9

Amended Complaint;302
,265 ,267 &.269 Motions to Dismiss te: Third
for Leave to
tXfut;ss Motions for Partial Judgment; 293 Request Supplement
Response'
to File
sup-plement Response and323 Motion for Leave
264

to the NEF (no image attziched) (Copies have been distributed pursuant
BEL) Modified time on 17t 512016 (BEL). (Entered: 0111512016)
0112112016

0r12212016

0U2212016

331

ERROR: Summons issued on wrong form by Clerk's Office.
form
CORRECTION: Summons recalled and REISSUED on correct
mailed to Plaintiff for service. (EDS)

and

$IEV) (Entered: 0l l2l 12016)
by Plaintiff Michael
JJJ MOTION for I 4-Day Extension to Serve Defendants
0 I 125120 1 6)
(Entered:
Harkey Responses due by 218120 I 6 (NEV )
334

ERROR: Summons issued on wrong form by clerk's office.
form
CORRECTION: Summons recalled and REISSUED on correct
mailed to Plaintiff for service. (EDS)

and

€snftais*-$IEV) (Entered: 0112512016)
334 Summons
NOTICE of Docket Correction to 331 Summons Issued and

0y2512016

Issued

:

ERROR: Summons issued on wrong form by clerk's offrce.
form and
CORRECTION: Summons recalled and REISSUED on conect
(Entered:
mailed to Plaintifffor service. (no image attached)(EDs)
0tl2sl2o16)

\-

Eve Beutler, Earl and
Summons Issued as to Bryce D Beutler , Earl Beutler t
Kevin R
Eve B eutler F amily Trust, Fidelity N ational Title Company
ofN evad4 and Patrick
McCarthY t Julee Metters, old Republic Title Company
0 1 125120 1 6)
Pittman re 244 Third Amended Complaint. (NEV) (Entered:

0u2512016

335

0112512016

Caleb Langsdale, and
336 Summons Issued as to Stephanie Cooper Herdman,
N*"V Rhody re332Fourth Amended Complaint' (NEV) (Entered:
0112s12016)

0U2612016

337

0U2612016

338_

S Bagula. by
M OTI ON for Leave to Appear T elephonically Attorney Mark
(Entered: 0 1 t26120 1 6)
Defendant Mi chelle N guyen. (w elsh, Martin)
Extension to Serve
ORD ER Granting Plaintiffs 333 Motion for I 4- Day
3 32 Amended
Defendants P laintiff shall have until 0211 0120 I 6 to serve
J r on 0 t12 612 0 I 6.
Complaint. Signed by Magistrate Judge George F oley ,
(Entered
(Copies have been distributed pursuant to the NEF NEV)

0112712016)
0210112016

339

Holdings, Inc. )
Interim S TA TU S REPO RT (JOINT) by Defendants Merscorp
(MERS). (B Yil€, P atrick)
Mortgage Electronic Registration Systems, Inc
(Entered: 02101/2016)

L++^^.ilon$ nrrlt rronnrrrrc -n.r/nci-hirr/T)laRnt n111O)?64'1 0051033R-T

' I

l -1

91412017

CM/ECF - nvd - District Version 6.1

0210312016

Page 51

of79

340 TRANSCRIPT of Proceedings, 186 Order on Motion to Consolidate Cases,
Motion Hearing, held on 11612015, before Magistrate Judge George Foley, Jr.
Transcriber: Patricia L. Ganci pattyganci@gmail.com. Transcript may be
viewed at the court public terminal or purchased through the Transcriber using
the court's Transcript Order form available on our website, at
www.nvd.uscourts.gov, before the deadline for Release of Transcript
Restriction. After that date it may be obtained through Transcriber or PACER
Redaction Request dte2/2412016. Redacted Transcript Deadline set for
31512016. Release of Transcript Restriction set for 5/312016. (PG) (Entered:
0210312016)

0210312016

341

Summons Re-Issued as to Bryce D. Beutler, Earl Beutler, Eve Beutler,
Stephanie Cooper Herdman, Earl and Eve Beutler Family Trust, Fidelity
National Title Company, Caleb Langsdale, Kevin R McCarthy, Julee Metters,
Old Republic Title Company of Nevada, Patrick Pittman, Nancy Rhody re332
Fourth Amended Complaint. (NEV) (Entered: 0210412016)

0210512016

342

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware, II,
on2/512016.

IT IS ORDERED that Defendant Nguyen's 337 Motion for Leave to Appear
Telephonically is DENIED. Defendant is further instructed that if she wishes
for her Califomia counsel to appear pro hac vice, that said counsel submit the
requisite petition to do so. The Court will not construe Defendant's 337 as a
petition for permission to practice pro hac vice.

\-

(Copies have been distributed pursuant to the NEF - BEL) (Entered:
0210s12016)

Undeliverable re 338 Order on Motion. addressed to Michael
Harkey. Envelope marked return to sender - unable to forward. No new address
available. Clerk did not resend. (NEV) @ntered: 0210812016)

0210512016

343

Mail Retumed

02108120t6

344

MOTION for Leave to Appear Telephonically. Attorney: Bridget B. Burns. by
Defendant Michelle Nguyen. (Welsh, Martin) @ntered: 0210812016)

0211012016

345

MINUTE ORDER IN CHAMBERS of the Honorable fuchard F. Boulware,II,

as

on211012016.

IT IS ORDERED that344 Motion for Leave to Appear Telephonically is
DENIED. Counsel is instructed to appear in person for the hearing.
(no image attached) (Copies have been distributed pursuant to the NEF BEL) (Entered: 0211012016)
0211012016

346

Summons Issued as to Credit Suisse, AG re 332 Fourth Amended Complaint.
(NEV) (Entered: 0211 I 12016)

021t0t2016

341

CERTIFICATE OF SERVICE for 332 Fourth Amended Complaint by Plaintiff
Michael Harkey. (NEV) @ntered: 0211112016)

02t11/2016

349

MINUTES OF PROCEEDINGS - Motion Hearing held on 2/1112016 before
the Honorable Richard F. Boulware,II. Crtrm Administrator Blanca Lenzi;Pla

t^x-^.tt^^$^,,,{ rronnrrr}o -^"/nci-hin/T)lz+Pnf nl210)?641005ln1?R-T. 'l 1-l

914/2017

Page 52

CM/ECF - nvd - District Version 6.1

of79

Burns,
Counsel: None Appearing;Def Counsel: Robert Brochin, Esq., Bridget
Esq., Kristin
Esq., Chelsea Ciiwton, Erq.,James Heffner, Esq., Tess Johnson,
Hearing:
Time
of
Sciluter-Hintz, Esq.; Court ReporterlFTR #: Patty Ganci;
1:46 - I:53 PM; Courtroom: 7C.

Pro sePlaintiffMichael Harkey is not present. The Court

notes Mr. Harkey's

absence is due to an apparent clerical error that resulted in him not receiving

notice of the hearing. p-or the Ieasons stated on the record at the hearing, IT IS
ORDERED that the motion hearing is continued to Thurldav. Fqbruary 25.
2016 at I 1:30 AM in LV Courtroom 7C

IT IS FURTHER ORDERED that Plaintiff Michael Harkey is directed to
contact the clerk, by phone, mail, or in person, to update his address in
CMIECF by 211911-6. Mt. H*k"y must also provide an email address with
which he can communicate with the parties and the Court by 2119116.
(no image attached) (Copies have been distributed pursuant to the NEF BEL) (Entered: 02123 12016)
02116120t6

348

0212312016

350

Undeliverable rc342Minute Order addressed to Joseph
Noel. Return to sender - unable to forward. No new address available. Clerk
did not resend. (NEV) (Entered: 0211712016)

Mail Returned

as

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware,II,
on212312016.

IT IS ORDERED that the hearing set for Thursday. February 25. 2016 is
ADVANCED to 11:00 AM in LV Courfroom 7C.
The hearing will address the following Motions 257 ,263 ,264 ,M,267 &
269 Motions to Dismissre Third Amended Complaint;3l2 &,303 Cross
Motions for Partial Judgment;293 Request for Leave to Supplement Response
and323 Motion for Leave to File Supplement Response.

(no image attached) (Copies have been distributed pursuant to the NEF BEL) (Entered: 02123 12016)
0212312016

351

0212412016

352

MOTION for Continuance of the Scheduled February 25,2016 Hearing by
Plaintiff Michael Harkey. Responses due by 311112016. (NEV) Modified event
on 2/24/201 6 (ED-S\. (Entered : 02/24 l20t 6)

MINUTE ORDER IN CIIAMBERS of the Honorable Richard F. Boulware,II,
on2l24l20l6.
IT IS ORDERED that PlaintiffMichael Harkey's 351 Motion for Continuance
is DENIED.
IT IS FURTHER ORDERED that Mr. Harkey must comply with this Court's
Minute Order 349 asto his CMECF account as well as provide an email
address to the Parties and Court.

'l
l^x^^.il^^$^.rzr ,,aanrr*fa ^^,,/^^i--}ri-/T\L+Dn+ ^lr1A.1AA1 nn510??R-T

1-1

q/4D017

Page 53

CM/ECF - nvd - District Version 6.1

of79

(Copies have been distributed pursuant to the NEF - BEL) (Entered
0212412016)
02t2412016

353 NOTICE of Appearance by attomey Terry A. Moore on behalf of Defendant
Old Republic Title Company of Nevada. (Moore, T"rrl') (Entered: 0212412016)

02t2412016

354

JOINDER to257 ,263 ,264 ,265 ,2fl_, and269 Motions to Dismissfiled by
Defendant Old Republic Title Company of Nevada. (Moore, T"rry') Modified
to link to motions on 2/2412016 (.EDS). (Entered: 0212412016)

02t2412016

355

MOTION to Dismiss by Defendant Old Republic Title Company of Nevada.
Responses due by 311212016. (EDS) Document Withdrawn per [ECF 365] on
3 l8l20l 6 (BEL). (Entered: 021241201 6)

02t2412016

3s6 MINUTE ORDER IN CHAMBERS Regarding the Requirements of Klingele
v. Eikenberry and Randv. Rowland as to 355 Motion to Dismiss. Opposition
due fourteen (la) days from the date of this Minute Order, and reply due seven
(7) days after the filing of the opposition. Signed by Judge Richard F.
Boulware, 1l on2l24l20l6. (Copies have been distributed pursuant to the NEF
- EDS) (Entered: 02/2412016)

NOTICE of Docket Correction to 354 Joinder. ERROR: Documents should

02t24D016

attorney,Iry-@.In

have been filed as separate entries by
accordance
with Special Order 109, a separate document must be filed.for each type.gf
document or purpose. Counsel advised in the future please file documents in
accordance with Special Order 109 filing procedures to prevent delay in the
timely filing of documents. CORRECTION: Court docketed rhe Motion to
Dismiss contained within document 354 as J!! Motion to Dismiss.(EDS)
@ntered: 0212412016)

\-.
02124/2016

357

NOTICE of Change of Address by PlaintiffMichael Harkey. Address
previously reflected on the docket. (NEV) (Entered: 0212512016)

0212512016

365

MINUTES OF PROCEEDINGS - MotionHearing held on 212512016 before
the Honorable Richard F. Boulware,II. Crtrrn Administrator: Blanca Lenzi;Pla
Counsel: Michael Harkey, Pro Se; Def Counsel: Robert Brochin, Esq., Patrick
Bryne, Esq., Chelsea Crowton, Esq., Tess Johnson, Esq., Kristin Schuler-Hintz,
Esq., Michael Gleason, Esq.Terry Moore, Esq., Martin Welsh, Esg; Court
Reporter/FTR #: Patty Ganci;Time of Hearing: I I : i0 AM - I 2: 19 PM
Courhoom: ZC.
The Court makes preliminary statements and hears argument of the parties
regarding the motions pending before the Court. For the reasons stated on the
record at the hearing,

IT IS ORDERED that Plaintiff s332 Fourth Amended Complaint is
STRICKEN.
IT IS FURTHER ORDERED that Plaintiff s293 Request for Leave to
Supplement Response with Assistance of Incoming Counsel is DENIED.

IT IS FURTHER ORDERED that Plaintiffs 302 and 303 Cross Motions for
Partial Judgment on the Pleadings or Partial Summary Judgment are DENIED.

Lr+--.//-^f -rrzl r.oanrr#o nn,lnni L.i-/T\I,+P-+ ^111 A1aAAlnn<1n??e-T 1 1-l

al4Do'17

CMIECF - nvd - District Version 6.1

Page 54 ot 79

IT IS FURTHER ORDERED that Defendants' 257 ,b4,267 , & 269 Motions
COUNTS ThTEE
tO DiSMiSS ArE GRANTED IN PART ANd DENIED IN PART'
(Violation of N.R.S. 205.3g5),Six (Rescission), Seven (Unjust Enrichment),
and Eight (Quiet Title) are DISMISSED. Count Four (Fraud) is DISMISSED
with re-spectlo Defendants Pittrnan, Metters, McCarthy, Cooper Castle,
the
Herdman, Langsdale, and Safeguard Properties, but shall proceed as to
as
remaining Defendants. The remainder of Plaintiffs claims may proceed
alleged in the Third Amended Complaint.

The Court GRANTS Defendant Old Republic Title Company of Nevada's oral
motion to withdraw 355 Motion to Dismiss. This motion is WITHDRAWN,
to
and Old Republic Title shall have until March 10. 2016 to file a Motion
Dismiss based upon the Thild Amended Complaint'

IT IS FURTHER ORDERED that Defendants Earl and Eve Beutler's 265
Motion to Dismiss is GRAI'ITED. Defendants Earl Beutler, Eve Beutler, the
Earl and Eve Beutler Family Trust, and Bryce D. Beutler are DISMISSED
from this action with Prejudice.

IT IS FURTHER ORDERED that Defendant Safeguard Properties, LLC's 263
Motion to Dismiss Plaintiffs Claim for Unjust Enrichment is GRAI'{TED'
IT IS FURTHER ORDERED that Plaintiffs 323 Motion to Amend complaint
is DENIED.

IT IS FURTHER ORDERED that discovery in this case shall be uN-

\-.

REFERRED.

IT IS FURTHER ORDERED that a status conference is set for lvlarc]r l!,201t[
the
at 3:30 PM in LV Courfoom 7C. The parties shall be prepared to discuss
discovery schedule and the amount and type of discovery they anticiPate
conducting in this case.

IT IS FURTI{ER ORDERED that the parties shall file proposed discovery
disc-over
schedules by March 7,2}76,specifing what information they seek to
from fhe opposing parties. The parties shall also provide courtesy copies
'1,2016'
these proposed schedules to one another by March

of

(Copies have been distributed pursuant to the NEF - BEL). (Entered:

03lo8/20r6)
0212912016

0212912016

0310312016

358

inder
Mail Returned as Undeliverable re Notice of Docket Correction to 354 Jo
new
No
addressed to Joseph Noel. Return to sender - unable to forward'
address available. Clerk did not resend. (NEV) (Entered: 0212912016)

Causes
3s9 NOTICE(S) of Intent to File Motion for Reconsideration of Dismissed
of Action and to File Alternative Motion for Transfer or Referral to Bankruptcy
Court by Michael Harkey. (NEV) (Entered: 02129/2016)

360

htrnc.//enf nrrd rrcnnrrrfc onv/noi-hin/T)lr+Rnt n121O)164100510??R-T' 1 I -l

91412017

Page 55

CM/ECF - nvd - District Version 6.1

ot'/9

MOTION for Leave to Appear Telephonic. Attorney: Robert M. Brochin or
Clay M. Carlton. by Defendants Merscorp Holdings, Inc., Mortgage Electronic
Registration Systems, Inc. (MERS). (Byrne, Patrick) (Entered: 03 I 03 1201 6)
03t0412016

361

MOTION for Leave to Appear Telephonically. Attorney: Bridget B. Bums. by
Defendant Michelle Nguyen. (Welsh, Martin) (Entered: 03/0412016)

03107120t6

362

PROPOSED Discovery Plan/Scheduling Order filed by Defendants Vanessa
Gonzales, Kevin R McCarthy, Quality Loan Service Corporation . (SchulerHintz, Kristin) (Entered: 03 107 l20l 6)

03107120t6

363

MOTION to Dismiss by Defendant Old Republic Title Company of Nevada.
Responses due by 3124/2016. (Attachments: # I Exhibit Ex. I - Affidavit of
Eliane Watson)(Moore, Terry) (Entered: 03 I 07 /201 6)

03107120t6

366 MOTION for Reconsideration of Cause of Action for Quiet Title by Plaintiff
Michael Harkey. Responses due by 312412016. (NEV) (Entered: 03/0812016)

03t07120t6

367

MOTION for Hearing by Plaintiff Michael Harkey. (NEV) (Entered:
03108120t6)
PROPOSED Discovery Plan/Scheduling Order filed by Plaintiff Michael
Harkey. g'{EV) @ntered: 03 10812016)

03/0712016

368

0310812016

364 MINUTE ORDER IN CHAMBERS Regarding the Requirements of Klingele
v. Eikenberry ard Rand v. Rowlond as to 363 Motion to Dismiss,. Opposition
due fourteen (1a) days from the date of this Minute Order, and reply due seven
(7) days after the filing of the opposition. Signed by Judge Richard F.
Boulware, II on3l8l20l6. (Copies have been distributed pursuant to the NEF EDS) (Entered: 03 10812016)

03/0812016

369

03109120t6

370 MOTION by Defendants Christina Allen, Black Ifuight Financial Services,
LLC, Fidelity National Financial Inc, Shoua Moua. Responses due by
312612016. (Attachments: # I Declaration Declaration of James E. Heffirer in
Support of Motion to Appear Telephonically)(Heffrrer, James) @ntered:

\.-

SCHEDULING ORDER Granting Defendants' 362 Proposed Discovery
Plan/Scheduling Order. Discovery due by 815/2016. Motions due by 911912016.
Signed by Magistrate Judge George Foley, Jr. on 03108/2016. (Copies have
been distributed pursuant to the NEF - NEV) (Entered: 03/0812016)

0310912016)
0311012016

37t ANSWER to 244 Amended Complaint,,,,, filed by Michelle Nguyen.(Welsh,
Martin) (Entered:

03

110/2016)

03/r0120t6

372

ANSWER to244 Amended Complaint,,,,, with Jury Demand filed by Christina
Allen, Black Knight Financial Services, LLC, Fidelity National Financial Inc,
Shoua Moua. (Heffner, James) (Entered: 03 I I 0 l20l 6)

03/10120t6

373

MINUTE ORDER IN CIIAMBERS of the Honorable Richard F. Boulware,II,
on311012016.

Before the Court, Attorney Robert M. Brochin or Clay M. Carlton's 360
Motion for Leave to Appear Telephonically and 361 Motion for Leave for

httnc'//ecf nvd rrscorrrts.sov/csi-hin/T)kfRnt.nl?102164100510338-T,

1

1-l

9/412017

Page 56

CMIECF - nvd - District Version 6.1

of79

Attorney Bridget B. Burn's to Appear Telephonically, good cause appearing, ts
GRANTED

join the hearing telephonically on 3/1012016 at 3:30 PM by
calling telepione no. (877) 336-1829; Access Code: 3616356, five (5) minutes
prior t-o the hearing time. Please remain on the line until such time as the Court
Said attomeys may

joins the call and *nu"tt.t the proceedings. The use of a cell phone or speaker
phone during the call is prohibited.
(Copies have been distributed pursuant to the NEF - BEL) (Entered:
0311012016)

03110120t6

374

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware,II,

on3ll0l20l6.
Before the Court, Attorney James Heffrter's 360 Motion for Leave to Appear
Telephonically, good cause appearing, is GRANTED.

Attorney James Heffrrer may join the hearing telephonically on3/1012016 at
3:30 PM by calling telephone no. (877) 336-1829; Access Code: 3616356, five
(5) minutes prior to the hearing time. Please remain on the line until such time
as'the Court joins the call and convenes the proceedings. The use of a cell
phone or speaker phone during the call is prohibited.
(Copies have been distributed pursuant to the NEF - BEL). (Entered:
031t0120t6)
03/1012016

LLC.
37s ANSWER to244 Amended Complain!,,,, filed by Safeguard Properties,
@urden, Jack) (Entered: 03 I 101201 6)

03110120t6

w.

0311012016

ANSWER to244 Amended Complaint,,,,, filed by Merscorp Holdings,Inc.,
Mort gage Electronic Re gi stati on Sy stems, Inc. (MERS). (Stutman, Erica)
@ntered: 03110/2016)
379 MINUTES OF PROCEEDINGS - Status Conference Hearing held on
3/1012016 before the Honorable Richard F. Boulware, II. Crtrm Administrator:
Blanca Lenzi;Pla Counsel: Michael Harkey, Pro Se;Def Counsel: Kristen
schuler-Hintz, Esq., Justin Shiroff, Esq., for Patrick Byrne, Esq., Chelsea
Crowton, Esq., Tess Johnson, Esq., Terry Moore, Esq., and Appearing
Telephonicaily: Bridget Burns, Esq., James Helfner, Esq., Clay Carlton, Esq.;
Court Reporter/FTR*: Patty Ganci;Time of Hearing: 3:50 PM - 4:12 PM;
Courtroom: 7C.
The Court makes preliminary statements and hears representation of the parties
regarding the disc-overy deadlines in this case. The Court orders certain
alterations to the discovery schedule proposed by the parties. The Court
cautions plaintiff that failure to comply with funue orders of the Court could
result in sanctions, up to and including case-dispositive sanctions such as
dismissal of his case.

IT IS ORDERED that Defendants shall re-submit an amended proposed
scheduling order by March22.20I6 detailing the changes as discussed at the
Ltt--. il^^c ^-,r .,^^^.'*^ -^,,1^^: L:-/T\L+D-+ nlg l A1?A11 nn<1 n??Q-T 1

1

-l

qt4D017

Page

CM/ECF - nvd - District Version 6.1

5l oI ly

to the
hearing, with a copy of the amended proposed order in Word format,
courtroom deputy for the Court's consideration'
(no image attached) (Copies have been distributed pursuant to the NEF
BEL) (Entered: 03 11612016)
0311412016

0311412016

377

addressed to
378 Mail Returned as U ndeliverable re 364 Klingele Minute Order
orward. N o new
Jo seph N oel Envelope marked: Retum to Sender Unable to F
1 6)
031
sl20
(Entered:
1
address available. Cler k did not resend. (sLD)

0311712016

380

0311812016

381

\031t812016

03/2112016

ANSWER to 244 Third Amended Complaint filed by Vanessa Gonzales,
Kevin R McCarthy, Quality Loan Serviie Corporation.(Schuler-Hintz, Ikistin)
(Entered: 0311412016)

Vanessa
PROPOSED Discovery Plan/Scheduling Order filed by Defendants
(Schuler.
Gonzales, Kevin R McCarthy, Quality Loan Service Corporation
Hintz, Kristin) (Entered: 03 ll7 12016)

I 6,
TRANSCRIPT of Pro ceeding s, 3 65 Motion Hearing, held on 2l2sl20
before Judge Richard F Boulware, il Court Reporter: Patricia L. Ganci
pattyganci@gmail .com Transcri pt may be viewed at the coult public terminal
or purchased through the C ourt Reporter uslng the court's Transcript Order
form availab le on our websi to, at www .nvd uscourts.gov before the deadline
for Release of Transcript Restriction. After that date it may be o btained
1 6.
through the Court Reporter or P ACER Redaction Request due 418120
Redacted Transcript Deadline set for 4t I 8120 1 6. Release of Transcript
Re striction set for 6lt 61201 6. (PG ) @ntered 0311 8120 I 6)
Chambers addressed to
383 Mail Returned as Undeliverable re 31 4 Minute Order m
Unable to Forward N o new
J oseph Noel Envelope marked Return to S ender
1 6)
address available Clerk did not resend (NEV ) @ntered 0 3t22120
Defendants
382 RESPONSE to 366 MOTION for Reconsideration, filed by
Services,
Christina Allen, Earl Beutler, Eve Beutler, Black Knight Financial
313112016'
by
due
Replies
LLc,Fidelity National Financial Inc, shoua Moua.
J. Gleason)(Gleason, Michael)
tAttu.fttn"nts: # 1 Declaration of Michael
(Entered: 0312112016)

03/2412016

384

0312412016

385

M OTI ON for B n ef Extension of Discovery Plan D eadlines Pending
Appearance of Counsel N ext w eek for Plaintiff by Plaintiff Michael Harkey
(I'IEV) (Entered 03124 120I 6)
on
MOTION for Leave to File Addendum to 366 Motion for Reconsideration
Michael Harkey' G'IEV) (Entered:
Quiet Title Cause of Action by Plaintiff
0312412016)

03/2412016

386

0312412016

387

Gonzales,
JOINDER to 382 Response to Motion; filed by Defend ants Vanessa
Kristin)
Kevin R McCarthy, Quality Loan Service Corporation' (Schuler-Hintz,
(Entered: 0312412016)

Undeliverable re 3 1 9 Minutes addressed to Joseph N oel.
new address
Envelope marked Retum to Sender Unabl e to F orward No
availabl e. C ler k did not resend. (NEV) (Entered 03 lzsl20 I 6)

Mail Returned

AS

:^t+no.ilao€mrrt rrcnnrn-tc onrr/noi-hiniT)ktRnt n1?1O)164100.510338-L

1

1-1

91412017

Page 58

CMiECF - nvd - District Version 6.1

\-

ot'l9

0312s12016

388

AMENDED MOTION for Leave to File Addendum to 366 Motion for
Reconsideration on Quiet Title Cause of Action by Plaintiff Michael Harkey.
(NEV) (Entered: 03 1281201 6)

03/3012016

389

RESPONSE to 388 Motion for Leave to File, filed by Defendants Christina
Allen, Earl Beutler, Eve Beutler, Black Knight Financial Services, LLC,
Fidelity Information Services, LLC. Replies due by 41912016. (Attachments: #
1 Declarati on)(Heffner, James) (Entered : 03 I 3 0 l20l 6)

04/0s12016

390

CERTIFICATE of Interested Parties filed by Credit Suisse First Boston
Mortgage Securities Corporation, Credit Suisse, AG, DLJ Mortgage Capital,
Inc., Select Portfolio Servicing, U.S. Bank, N.A., US National Bank. There are
no known interested parties other than those participating in the case . (Nitz,
Dana) (Entered: 04105 1201 6)

04105120t6

391

JOINDER to 382 Response to Motion filed by Defendants Credit Suisse First
Boston Mortgage Securities Corporation, Credit Suisse, AG, DLJ Mortgage
Capital, Inc., Select Portfolio Servicing, U.S. Bank, N.A., US National Bank.
(Nitz, Dana) (Entered: 0410512016)

0410512016

392 JOINDER to 389 Defendants' Oppositon to Plaintiffs Corrected Motion for
Leave to file Addendum to Motion for Reconsideration on Quiet Title Cause of
Action filed by Defendants Credit Suisse First Boston Mortgage Securities
Corporation, Credit Suisse, AG, DLJ Mortgage Capital,Inc., Select Portfolio
Servicing, U.S. Bank, N.A., US National Bank. (Nitz, Dana) @ntered:
0410s120t6)

04/0712016

393

NOTICE of Change of FirmName by MichelleNguyen. (Attachments: #
Certifi cate of Service)@agula, Mark) (Entered: 04 /07 l20l 6)

04ltt/20t6

394

NOTICE of Retention of Counsel by Michael Harkey. (PS) (Entered:
04lt2l20t6)

04/1212016

395

CERTIFICATE of Interested Parties filed by Kimberly Clark, Credit Suisse
First Boston Mortgage Securities Corporation, DLJ Mortgage Capital, Inc.,
Julee Metters, Patrick Pittunan, Select Portfolio Servicing, U.S' Bank, N.A.,
Wells Fargo Bank, N.A.. There are no known interested parties other than
those participating in the case . (Crowton, Chelsea) @ntered: 0411212016)

04112/2016

437

TRANSCRIPT of Proceedings, 379 Motion Hearing, held on 3110116, before
Judge Richard F. Boulware, II. Court Reporter: Patricia L' Ganci
patfyganci@gmail.com. Transcript may be viewed at the court public terminal
or purchased through the Court Reporter using the court's Transcript Order
form available on our website, at www.nvd.uscourts.gov, before the deadline
for Release of Transcript Restriction. After that date it may be obtained
through the Court Reporter or PACER Redaction Request due 5/312016.
Redacted Transcript Deadline set for 511312016. Release of Transcript
Restriction set for 7/1112016. (PG) @ntered: l0/11/2016)

04t2U20t6

396 NOTICE of Appearance by attorney Terry A. Moore on behalf of Defendant
Old Republic Title Company of Nevada. (Moore, Terrl') (Entered: 0412112016)

04/2112016

397

La-^. tt^^c^-,A rronnrrrrc ^^',/^-i-hi-/T)lrtPnf n111O)?64] 005 10338-T, 1

1-1

1

91412017

yage J9

CM/ECF - nvd - Distict Version 6'1

oI ly

NOTICE of Appearance by attorney Christian T Balducci on behalf of
Defendant old Republic Title company of Nevada. (Balducci, christian)
(Entered: 0412112016)
0412U20r6

398

WITHDRAWN per lQ! Order: vERIFIED PETITION for Permission to

a4l2ll20t6

399

WITHDRAWN per

0412712016

400

MOTION to Withdraw re:

of
Practice Pro Hac Vi..$Frederick John Arensmeyer and DESIGNATION
(TR)
Modified
Local Counsel Richard Segerblom by Plaintiff Michael Harkey.
on 51312016 (KR). (Entered: 0412212016)
Order: VENFIED PETITION for Permission to
of Local
Practice Pro Hac Vi..EGary Victor Dubin and DESIGNATION
on
(TR)
Modified
Counsel Richard Segerbiom by Plaintiff Michael Harkey.
6)
5 13 12016 (KR). (Entered: 04 l22l20l

l!!

and 322 VERIFIED PETITIONS; filed by
(Segerblom,
Petitioner Gary Victor DubinlResponses due by 511412016.
Richard)

l!!

event selected, by attorney CORRECTIO N C ourt
p.
corrected the event and proper ly established docket entry relationshi
Modified on 4t27 t20I 6 (Rr (Entered 04127 t20 I 6)
ECF Nos.
ORDER gran ting ECF No. 400 Motion to Withdraw; withdrawing
Pro Hac V rce Signed
398 and 399 V erified Petitions for Permission to Practice
distribute d
by Judge Richard F Boulware, II on sl2l2 0 I 6 (Copies have been
pursuant to the NEF KR) (Entered: 0 st03l20 I 6)

ERRO R

wrong motion

o

\-

0510212016

401

0s10912016

on behalf of Plaintiff
402 N OTICE of Appearance by attorneY Ro bert J Kern
Michael Harkey (Kern, Robert) (Entered: 0s109120 I 6)

0510912016

403

0s11012016

0slt2l20r6

J ohn
VERIFIED PETITION for Permission to Practice Pro Hac Vice by
(Filing fee
William Verant and DESIGNATION of Local Counsel Robert Kern
Michael Harkey
$ 250 receipt number 0978-4111769) by Plaintiff
Robert)
Standing)(Kern,
of
Good
(Attachments: # 1 Exhibit Certificate
(Entered: 0510912016)
to J oseph N oel.
404 Mail Returned AS Undeliverable re 401 Order addressed
No new address
Envelope marked: Return to Sender Unable to Forward
1 6)
available. Clerk did not re send. (SL D) (Entered 0511 U20

405

Hac
ce
Granting 403 V erified Petition for Permission to Practi Pro
V lCe for Attorney John w illiam V erant for Michael Harkey and Harkey
Robert Kern.
Operating Trust and approving Designation of Lo cal Counsel
Signed by J udge Richard F Boulware ) il on 0sl I 2120 I 6.
shall submi t
Any Attorney not yet regi stered with the Court's CM/E CF System
www.nvd.uscourts.gov
a Regi stration Form on the Court' s website
(Entered
( Copies have been distributed pursuant to the NEF NEV)

o RDER

0sn3l20t6)
05119120t6

to JosePh Noel. (JC)
406 Mail Returned as Undeliverable re 405 Order, addressed
(Entered: 0512012016)

0610612016

407

1-L---tr^^t-..A -.^aa''ro ^^',/^-i-!.i-/T)lrtPnt n121O)764'100510?38-I 1

1-1

9t412017

Page 60

CM/ECF - nvd - District Version 6.1

0611612016

408

0712012016

409

09113120t6

410

of
Joint sTATUS REPORT Interimby Defendant old Republic Title company
Nevada. (Moore, Terrl') (Entered: 061 061201 6)
(Kern,
RESPONSETo 407 Status Report ; filed by Plaintiff Michael Harkey'
Robert) (Entered: 061 1612016)
CERTIFICATE of Interested Parties filed by Merscorp Holdings,Inc',
rra*g"g" Electronic Registration Systems,Inc. (MERS) that identifies all
parties iirat have an interest in the outcome of this case. Corporate Parent.
ilrl*oon Holding, LLC for Merscorp Holdings, Inc. added' ' (Stutrnan, Erica)
(Entered: 0712012016)

# 1
NO TI CE of Change of Address by Mark Scott Bagula. (Attachments:
Certificate of S ervice)(Bagula, Mark) (Entered: 091 1 3120 I 6)
4tl. J oint MOTI ON for Sanctions re D I scovery or A Iternatively, Motion toI C6 ompel
913 0120
Discovery by Defendant Michelle N guyen. Responses due by
ts to D ec of
Exhibi
Index
2
#
( Attachments # I Declaration Mark S. B agula,
Terq' Moore, # 5
Bagula, # J Exhibit 1 I 0 to Dec of Bagula, # 4 Declaration
#7
Index Exhibits to Dec of Mo ore, # 6 Exhibit 1 2 to Dec of Moore,
I6
Certi ficate of S ervice)(Bagula, Mark) (Entered: 091 I 3120 )
Credit
4t2 MOTI ON for Summary Judgment by Defendants Kimberly Clark,
LJ Mortgage c apital,
Suis SE First B oston Mortgage Securities Corporation, D
.A., Consol
Inc., Bill Koch, Select Portfolio Servicing, U .S Bank, N
due by I 0lt 3120 1 6
Defendants Julee Metters, Patrick Pithnan. Responses
09ll9120 I 6)
(Attachments # I Exhi bit A)( Crowton, Chelsea) (Entered:

0911312016

0911912016

\-

ot'/9

Credi t Suisse First
STATEMENT of Facts by Defendants Kimber ly Clark,
Capital, Inc, t Bill
Bo ston Mortgage Securiti es Corporation, DLJ Mortgage
Consol Defendants Julee
Koch, S elect Portfo lio Servicing, U .s. Bank, N .A.,
9120I 6)
Metters, Patrick Pi ttman. (Cro wton, Chelsea) (Entered 09lt

09119120t6

413

0911912016

Clark, Credit
4t4 MOTION to Expunge Lis Pendens by Defendants Kimberly
Capital,
First Bo ston Mortgage Securi ties Corporation, D LJ Mortgage
Sui sse

N .A., Consol
Inc., Bill Koch, Select P ortfol io Servicing, U .S Bank,
due by 1 016120 1 6.
Defendants Julee Metters, Patrick Pitbnan. Responses
(c rowton, Chelsea) (Entered: 09 119 l20l 6)
Holdings, Inc.,
4ts M OTI ON for S wnmary Judgment by Defendants Merscorp
(MERS) Responses due by
Mortgage Electronic Registration Systems, Inc
I 0l I J 120 I 6 (Stutman, Erica) @ntered 091 I 9120 I 6)

0911912016

f

the Requirements o Klinge le
416 MINUTE ORD ER IN CHAMBERS Regarding
Motion for Summary Judgment,
v Eikenberry and Rand v Rowland as to 41s
tion due ) 1 days from the date of
4t2_ Motion for SummarY Judgment,. Opposi
of the opposl tion.
this Minute Order ) and reply due I 4 days after the filing
I 6 (Copies have been
I
Signed by Judge Richard F Bpul ware, on 9l 9120
9120 I 6)
distributed pursuant to the NEF EDS ) @ntered: 0911

09119120t6

il

091t912016

417

0911912016

418

Lx^^.tton€n

rzl

filed by Defendant
JOINDER to 412 and 415 Motion for Summary Judgment
9120 1 6)
o ld Republic Title CompanY of N evada. (Moore, Terry ) (Entered: 09lt

rrcnnrrrtc o^.r/noi-hin/T)lrtRnf n111O)1541005 10338-L

I 1-l

914/2017

Page6l of79

CMIECF - nvd - District Version 6'1

MOTION for Summary Judgment by Defendants Vanessa Gonzales, Kevin R
McCarthy, Quality Loan Service C orporation. Responses due by 1011312016(Schuler-Hintz, Kristin) (Entered: 09 I 19 12016)
0911912016

4t9 JO INDER to 4t2 Motion for Summary Jud gment, Fil ed by sPs Defendants
fi led by Defendants V anessa Gonzales, Kevi n R M c Canhy Quali ty Loan
Service C orporati on (Schuler- Hintz, Kri stin) (Entered 091 I 9120I 6)

091t9120t6

420

0911912016

421

09119120t6

422

0912012016

423

JOIND ER to 415. Motion for Summary Judgment , Filed by MERS Defendants
filed by Defendants V ane SSA Gonzales Kevin R McCarthy t Quality Loan
Service Corporation. (Schuler- Hintz, Iftistin ) (Entere d: 0911 9120 I 6)
JOINDER to 413 Statement, ; offacts fled by SPS Defendants filed by
(schulerDefendants Kevin R Mccarthy, Quality Loan Service corporation.
Hintz, Iftistin) (Entered: 09119/2016)
REQUEST for Judicial Notice re 418 Motion for Summary Judgment; by
Defendants Vanessa Gonzales, Kevin R McCarttry, Quality Loan Service
Corporation. (S chuler-Hintz, Kristin) (Entered : 09 I 19 120 I 6)

MINUTE

oRDER IN CHAMB ERS Regarding

the Requirements

of Klingele

Eikenberry and Rand v. Rowland as to 418 Motion for Summary Judgment.
due 1 4
Opposition due 2l daY from the date of this Minute Order ) and reply
ware, II
B
oul
F
days after the filing of the opposition. S igned by Judge Richard
on9l20l20l6. (CoPies have been distributed pwsuant to the NEF ED s)
(Entered: 0912012016)

v.

\-

09120120t6

09120120t6

Judicial
JOINDER to 418 Motion for Summary Judgment' 422Reqt'rcst for
(Moore,
Nevada.
of
Notice ; filed b-y Defendant old Republic Title company
Terrl') @ntered: 09 120l20l 6)
414 Motion to
425 JOINDER to 415 Motion for Summary Judgment, 421 Joinder ,
Motion for
Expunge Lis P endens, 412 Motion for Summary Judgment, 418
filed by
N
otice
J
udicial
for
Summary Judgment, 413 Statement, 422 Request
Ituight F inancial
Defendants Christina Allen, Earl B eutler, Eve Beutler ) B lack
(Heffter, James )
Moua.
Services, LLC, FidelitY National Financial Inc, Shoua

424

(Entered: 0912012016)

Motion for Summary Judgment, 412 Moti on for Summary
I 3 Statement, filed by
Judgment, 418 Motion for Summary J udgment, 4
0 9122120 I 6 )
Defendant Safeguard Properties, LL C. (Burden Jack) (Entered:

J o INDER to 415

0912212016

426

09128120t6

427

0912812016

W

0912812016

429

J OIND ER to 418

0912812016

430

CERTIFI CA TE

0912812016

43r

Defendant
JOINDER to 415 Motion for Summary Judgment ; filed by
Michelle Nguyen. (Bagula, Mark) (Entered: 0912812016)
Motion for Summary Judgment, ) filed by Defendant
JOINDER to
Michelle Ngu yen. (Bagula, Mark) @ntered: 09128t20 I 6)

M

M otion for Summary Judgment filed by Defendant
Micheile N guyen. (Bagula, Mark) (Entered 09 t2 8/20 I 6 )
SERVICE for 428 Joinder ) 429 Joinder, 427 Joinder by
(Bagula, Mark) (Entered: 09128120 1 6)
Defendant Mi chel le N guy

oF

L.a-^, tt^^c-.,A $naail*n nn,,lnni L:-/T\l,fD-+ nl?14??6d1nn{1n?xR-T

1 1-1

9t412.017

Page 62

CM/ECF - nvd - District Version 6.1

ot79

JOINDER to 415 Motion for Summary Judgment, 41 8 Motion for Summary
Judgment, 422Request for Judicial Notice ; filed by Defendants Kimberly
Clark, Credit Suisse First Boston Mortgage Securities Corporation, DLJ
Mortgage Capital,Inc., Bill Koch, Select Portfolio Servicing, U.S. Bank, N.A.,
Consol Defendants Julee Metters, Patrick Pittman. (Crowton, Chelsea)
(Entered: 0912812016)
0913012016

432

RESPONSE to 411 Motion for Sanctions re Discov€rY,, filed by Plaintiff
Michael Harkey. Replies due by 1011012016. (Attachments: # I Declaration of
John William Verant and Exhibits 1 and 2,#2 Declaration Robert J. Kern, # 3
Declaration Michael Harkey and Exhibit A)(Verant, John) (Entered:
09/3012016)

t010412016

433

WITHDRAWAL of Motion 429 Joinder by Defendant Michelle Nguyen
(Attachments: # 1 Certificate of Service)(Bagula, Mark) (Entered: 1010412016)

t0/04/2016

434

JOINDER to 415 Motion for Summary Judgment ; filed by Defendant
Michelle Nguyen (Attachments: # I Certificate of Service)(Bagula, Matk)
@ntered: 1010412016)
REPLY to Response to 4l I Motion for Sanctions re Discovery, filed by
Defendant Michelle Nguyen. (Attachments: # I Declaration,# 2 Certifrcate
Service)(Bagula, Mark) @ntered: 10107 12016)

10107n016

435

r0lt0l20t6

436 AIISWER to2!4 Amended Complaint,,,,, filed by Kimberly Clark, Credit
Suisse First Boston Mortgage Securities Corporation, DLJ Mortgage Capital,
Inc., Bill Koch, Julee Meuers, Patick Pitbnan, Select Portfolio Servicing, U.S.
Bank, N.A..(Crowton, Chelsea) (Entered: l0 I l0 l20l 6)

tjlt2l20l6

438

\-.

of

DECLARATION re 412 Motion for Summary Judgment, ; filed by Defendants
Kimberly Clark, Credit Suisse First Boston Mortgage Securities Corporation,
DLJ Mortgage Capital,Inc., Bill Koch, Select Portfolio Servicing, U.S. Bank,
N.A., Consol Defendants Julee Metters, Patrick Pittrnan. (Crowton, Chelsea)
@ntered: 1011212016)

10^3t20t6

439

RESPONSE to 415 Motion for Summary Judgment, filed by PlaintiffMichael
Harkey. Replies due by 10130/2016. (Attachments: # Brief, # 2 Declaration
of Michael Harkey Veriffing Factual Allegations in Third Amended Complaint
and Declaration RE: Accrual of Causes of Actions in Response to Motion for
Summary Judgment of the MERS System Defendants, # 3 Declaration of
Wendy Alison Nora Authenicating Plaintiff s Exhibits to Thjrd Amended
complaint and Exhibits A, B and c in Response to Motion for Summary
Judgment of the MERS System Defendants)(Verant, John) (Entered:

l

10t13t2016)

t0l13l20l6

440

DECLARATION re

439 Response to

(Verant, John) (Entered: l0l
1011312016

441

tjlt3l20t6

442

Motion by PlaintiffMichael Harkey.

131201 6)

439 Response to
Michael Harkey. (Verant, John) (Entered: 1011312016)

DECLARATION of Michelle Nguyen re

Lg-^. tt^^c^.,A rrnnnrr*rc ^^,,/^^i-f i-/T'llz+Pnf n111O)7641005 10??R-I . 1 I-1

Motion by Plaintiff

9/412011

CM/ECF - nvd - District Version 6.1

Page 63

of79

DECLARATION of Quality Loan Service Corporation, Kevin McCarthy, and
Vanessa Gonzalezre 439 Response to Motion by Plaintiff Michael Harkey.
(Verant, John) (Entered: l0l 13/2016)
MOTION to Strike 436 Answer to Amended Complaint, by Plaintiff Michael
Harkey. Responses due by 10130/2016. (Verant, John) (Entered: 10/1312016)

1011312016

443

10t13D016

4+! MOTION to Extend Time regarding dispositive matter (First Request) te 425
Joinder, 424 Joinder, 419 Joinder, 431. Joinder, %.Joinder, 423 Klingele
Minute Order, 412 Motion for Summary Judgment, 429 Joinder,4lT Joinder,
@ Joinder,473 Statement, 427 Joinder,428 Joinder, 421 Joinder,4l4 Motion
to Expunge Lis Pendens, 418 Motion for Summary Judgment by Plaintiff
Michael Harkey. (Verant, John) (Entered: 1011312016)

t0/t3Djl6

446

Mail Returned for Joseph Noel as Undeliverable re 423l{lingele Minute Order
No New Address - Did Not Resend. (JM) (Entered: 1011412016)

t0/14120t6

445

MINUTE ORDER IN CHAMBERS of the Honorable Magistrate Judge
George Foley, Jr. on 1011412016. By Deputy Clerk: Ivy Hensel.
RE: 443 MOTION to Strike 436 Answer to Amended Complaint

Motion Hearing set for Mondav. November 14.2016 at 9;30 AIVI in LV
Courtroom 34 before Magishate Judge George Foley, Jr.(no image attached)
(Copies have been distributed pursuant to the NEF - IH) (Entered: 1011412016)
t0/2112016

447

NOTICE Receipt of copy by Kimberly clark, credit Suisse First Boston
Mortgage Securities Corporation, DLJ Mortgage Capital,Inc., Bill Koch, Julee
Metters, Patrick Pittrnan, Select Portfolio Servicing, U.S' Bank, N.A. re 436
Answer to Amended Complaint,. (Crowton, Chelsea) (Entered: 1012112016)

t0/24120t6

448

MOTION for Leave to Appear Telephonic. Attorney: James E. Heffirer. by
Defendants Christina Allen, Earl Beutler, Eve Beutler, Black Knight Financial
Services, LLc,Fidelity National Financial Inc, Shoua Moua. (Attachments: # 1
Declaration)(Heffner, James) @ntered : I 0 I 24 120 I 6)

10/2512016

449

ORDER granting 448 Motion for Leave to Appear Telephonically

for the Hearing set for Monday,
November 14,2016 at 9:30 a.m. Parties are instructed to call the Audio
Conference Line at (8SS) 251-2909, access code7771745, five (5) minutes
prior to the hearing time. Please remain on the line until such time as the Court
joins the call and convenes the proceedings. The use ofa cell phone or speaker
phone during the call is prohibited. The call must be made using a land line'
James Heffrter, Esq. may appear telephonically

Signed by Magistrate Judge George Foley, Ir on 10125/2016, (Copies have
been distributed pursuant to the NEF - IH) (Entered:1012512016)

t0/2912016

1L,--.tt--.c--.)

450

RESPONSE to 443 Motion to Strike, filed by Defendants Kimberly Clark,
Credit Suisse First Boston Mortgage Securities Corporation, DLJ Mortgage
Capital, Inc., Bill Koch, Select Portfolio Servicing, U'S' Bank' N.A., Wells
Fargo Bank, N.A., Consol Defendant Patrick Pittman. Replies due by
1 1 I 8 120 I 6. (Crowton, Chelsea) (Entered : 1 0 129 1201 6)

--^^^.-r- -^-,t^^: L:-/T\I,+Dn+^111A1?,Ad1nn{1n??R-T 1 l-1

9/412017

CM/ECF - nvd - District Version 6.1

t0129120t6

Page 64

oI'/9

4sl MOTION for Acceptance of Late Filed Answer re 436 Answer to Amended
Complaint, by Defendants Kimberly Clark, Credit Suisse First Boston
Mortgage Securities Corporation, DLJ Mortgage Capital,Inc., Bill Koch,
Select Portfolio Servicing, U.S. Bank, N.A., Wells Fargo Bank, N-A., Consol
Defendant Patrick Pittman. Responses due by 1111512016. (Crowton, Chelsea)
(Entered: 1012912016)

10/29120t6

452 DECLARATION of Chelsea A. crowton, Esq. re 451 Motion, 450 Response
to Motion, ; by Defendants Kimberly Clark, Credit Suisse First Boston
Mortgage Securities Corporation, DLJ Mortgage Capital,Inc., Bill Koch,
Select Portfolio Servicing, U.S. Bank, N.A., Wells Fargo Bank, N.A., Consol
Defendant Pahick Pittman. (Crowton, Chelsea) (Entered: 10/2912016)

10t3112016

4s3 MINUTE ORDER IN CHAMBERS of the Honorable Magistrate Judge
George Foley, Jr. on 1013112016. By Deputy Clerk: Ivy Hensel.

RE: 451 Motion for Acceptance of Late Filed Answer
n LV
Motion Hearing set for
Courhoom 3A before Magistrate Judge George Foley, Jr.(no image attached)
(Copies have been distributed pursuant to the NEF - IH) (Entered:1013112016)

\-

t013112016

4s4 REPLY to Response to 415 Motion for Summary Judgment filed by
Defendants Merscoqp Holdings, Inc., Mortgage Electronic Registration
Systems, Inc. (MERS). (Stutnan, Erica) (Entered: l0 13 1 l20l 6)

1t/01/2016

455

MOTION for Leave to Appear Telephonically at the Novembet 14,2016
hearing re 443 and 451 Motions. Attorney: Clay M. Carlton. by Defendants
Merscorp Holdings, Inc., Mortgage Electronic Registration Systems, Inc.
(MERS). (Stunnan, Erica) (Entered: 1 I / 01 l20l 6)

rr/02/2016

4s6 ORDER granting 455 Motion for Leave to Appear.
Clay M. Carlton, Esq. may appear telephonically for the Hearing set for
Monday, November 14,2016 at9:30 a.m. Parties are instructed to call the
Audio Conference Line at (88S) 251-2909, access code7771745, five (5)
minutes prior to the hearing time. Please remain on the line until such time as
the Court joins the call and convenes the proceedings. The use of a cell phone
or speaker phone during the call is prohibited. The call must be made using a
land line.
Signed by Magistrate Judge George Foley, Jr on 1 11212016. (Copies have been
distributed pursuant to the NEF - IH) (Entered: 11102/2016)

11 10312016

4s7

SUPPLEMENT to 439 Response to Motion by Plaintiff Michael Harkey.
(Attachments: # 1 Exhibit D-l: Part I of New Century Liquidating Trustee
Documents (Bates Numbered Pages 1-38a))fferant, John) (Entered:

tt/03120t6)
11103120t6

4s8

Ls-^. tt^^s-,,A

rroaarrrrc

EXHIBIT(s) D-2: Part 2 of New Century LiquidatingTrustee Documents
(Bates Pages 385-680) to 439 Response to Motion,, ; filed by Plaintiff Michael
Harkey. (Verant, John) (Entered: 1110312016)

^^.,/^ni-Lin/T)lrtPnt n111O)?64100510??R-L 1 1-l

91412017

Page 65 of 79

CM/ECF - nvd - District Version 6.1

1U0312016

459

EXHIBIT(s) D-3; Part 3 of New Century Liquidating Trustee Documents
Michael
(Bates Pages 681-893) to 439 Response to Motion,, ; filed bY P laintiff
Harkey. (Verant, John) (Entered: 1110312016)

11 t03120 1 6

460

11103120t6

461

ll

462

10312016

6,
EXHIBIT( s) E: Exemplied "Certified True and Accurate Copy" of February
Harkey'
2007 Note to 439 Response to Motion,, ; filed by Plaintiff Michael
(Verant, John) (Entered: 11 10312016)

by
EXHIBIT (s) F, 1ns 2 008 Forrn 9 J 8 to 4 39 Response to Motion,, t filed
0
1
6)
Plaintiff Michael Harkey ry erant, J ohn) (Entered 1 I t0312

DECLARATI ON of Michael Harkey re 439 Response to Motion, t , Signed
a
(unsigned vers ton was
October I J 20 6 Decl aration of Mic hael Harkey
Michael
accidentally ed on October I 3, 2 0 I 6 as Doc 4 3 9- 2) by Plaintiff

fit

Harkey

1l t0312016
1U0712016

tU0712016

(v erant, John) (Entered:

1 1

103 120 1 6)

Mail Returned as Undeli verable re 445 Minute Order addressed to Joseph
1 I l0 7120 I 6)
N o el. N o F orwarding Address D id N ot Resend (.IM) (Entered
Motion,, t by Plaintiff
464 REQUE ST for Judicial Notice re 4 3 9 Response to
1 6)
Michael Har key (Kern, Ro bert) (Entered: 1 I 107 l2 0

463

465

M OTI ON for Entry of Clerks Default by Plaintiff Michael Harkey
')
Default, # J
( Attachments # I Exhibi t Proof of Service, # Exhibit Previous
1 1 107 120 I 6)
sed Order Proposed Default)(Kern, Robert) @ntered:
Propo

\-

rU0712016

451 Motion, filed by Plaintiff
466 REPL Y to Response to 443 Motion to Shike,
Michael Harkey (Kern, Robert ) (Entered: 1 1 107 1201 6)

trl07l20t6

467

1y0712016

by Plaintiff
MOTI ON Relief from Scheduling Order re 369 Sched uling Order
# Supplement
(
Michael Harkey Responses due by 1 U2412 0 1 6. Attachments:
1 1 107120 I 6)
Consolidated Response Re Mtn to Strike ) (Kern, Robert) @ntered:

I

re 451 Motion, 450 Response
468 M OTI ON for Acceptance of Late Filed Answer
436 Answer to Amended
to Motion, 465 Motion for Entry of Clerks Default,
due by
Complaint, by Defendant w ells Fargo Bank, N .A.. Responses
I I 124120 1 6 (Crowton, Chelsea ) (Entered: 1 I 107 120 I 6)

1110712016

469

Wells Fargo Bank, N.A.
ANSWER to244Amended Complaint,,,,, filed by
( Crowton, Chelsea) (Entered: Ill07 12016)

ly0812016

470

Judge
MINUTE ORDER IN CHAMBERS of the Honorable Magistrate
Ivy Hensel.
George Foley, Jr. on 111812016' By Deputy Clerk

of Late Filed Answer
RE: 468 Defendant wells Fargo's Motion for Acceptance

r110812016

471

8, 20 I 6, S cheduling Order,
RESPO N SE to 467 Motion for Relief from March
Loan
filed by D efendants V anessa Gonzales t Kevin R McCarthy Quality
Kristin
(Schuler- Hintz,
)
1
Service Corporation. Replies due by I I l2 s12 0 6
(Entered: 1110812016)

r-a,--. tr-^c--,)..^^^.+a -^.,1^-: Li-/T\lz+D-+ a191O12641 nnsln??R-T' 1 l-'l

91412017

Page 66

CMIECF - nvd - District Version 6'1

rt10912016

412

AMENDED MOTION for Entry of Clerk's Default M+FIOF++o
Michael
Amen#eerre* 465 Motion for Entry of Clerks Default. by Plaintiff
(Attachments: # l Exhibit Proof of
Harkey
Order Default Form)(Kem,
Service, # f Exhibit Original Default, # 3 Proposed
ed
Robert)
(Entered: 1110912016)

t110912016

ttl09l20r6

rrl09l20r6

of79

event

V erant. by Plaintiff
M OTI ON for Leave to Appear T elephonic AttomeY J ohn
I 6)
Michael Har key (Kem, Robert) (Entered I I t09t20
f Clerks Default, 472 Motion for Entry
414 RESPON SE to 465 M otion for Entry o
N A. Replies due by
of C lerks Default,, fil ed by Defendant Wel ls Fargo Bank,
(Entered 1 I 109120 I 6)
1 I I 1 9120 I 6 (Crowton, Chelsea)

473

47s

CSMC
to 454 Reply to Response to Motion filed by Defendants
Credit Suisse First B oston
Mortgage B acked Trust 20 07 -6, Kimberly Clark,
Capital, Inc., Bill Koch,
Mortgage Securities Corporation, DLJ Mortgage
.A., wells Fargo B ank, N .A ) Consol
Select Ponfolio Servicing, U .s. B ank, N
Chelsea) (Entered
Julee Metters, Patick Pittman. (Crowton,
J OINDER

Defendants
1t10912016)

I

1/l 0120 I 6

476

ORDER granting 473 Motion for Leave to Appear'

for the Hearing set for
William V erant, Esq. may appear telephonicallY
Parties are insfiucted to call the
MondaY ) N ovem ber I 4 20 I 6 at 9 :30 a.m.
code 777 I 74 5 t five ( 5 )
Audio Conference Line at (8 88) 25 1 2909 , access
remam on the line until such time as
minutes pnor to the hearing time Please
proceedings. The use of a cell phone
the Court joins the call and convenes the

J ohn

\.-

1lt1 0D01 6

477

The call must be made usmg a
or speaker phone during the call ls prohibited.
George F oley , Jr on 1 I I I 0120 1 6 (Copies
Iand line. Signed by Magistate Judge
NEF IH) (Entered: 1 I lt 0120 I 6)
have been distributed pursuant to the
Judge Hearing of November 74'
EmergencY MOTION to Continue Magistrate
HarkeY
2016re443,451 and 468 Motions bY Plaintiff Michael
MRI RePort)
Exhibit
2
#
(Attachments:# 1 Declaration Verant Declaration,
(Entered:
1
(Kem, Robert)

r1lt0l20r6)
t1ltr12016
11

lr 312 0 1 6

rlll

r

V erant re 432 Response to Motion, by
478 DECLARA TI ON of J ohn William
1 1 l1 1 l2 0 1 6)
Plaintiff Michael Harkey (v erant, J ohn ) (Entered:
filed by Plaintiff Michael Harkey
479 REPL Y to Response to 467 Motion
B # 3 Exhibit C , # 4 Exhibit D)
(Attachments # I Exhibit A, # 2 Exhibit
(v erant, John) (Entered I 1 l1 ) 120 1 6)

312016

480

1111412016

481

Fed. R. Civ P. I 6 (b) by Plaintiff
M OTION for Schedul mg Order Pursuant to
#
0120 I 6 (Attachments # 1 Exhibit A,
Michael Harkey Responses due by 1 I l3
6)
1
3120
bit DXV erant, John) (Entered: 1 rll
2 Exhibit B ) # J Exhi bit c, # 4 Exhi

Hearing held on 1111412016 before
MINUTES OF PROCEEDINGS - Motion
Administator E, Garcia;Pla
Magistrate Judge George FoleY, Jr. Crtnn
APPe arance by John Verant, also
Counsel: Robert Kern and TelePhonic
Moore and Chelsea Crowton.
present Michael HarkeY; Def Counsel: TerrY

,r -.tt--c----s--^^^--+^ -^"t^-: l-i-/T-\L+Dn+ a|r1A.?641nO51O??R-T l 1-l

91412017

CM/ECF - nvd - District Version 6.1

Page 6-/

oI'19

Telephonic Appearance by James Heffner, Clay Carlton and Bridget Burns;
Court Reporter/FTR #: 9:34a.m. - 9:53a.m.; Courtroom: 3l;

The Court makes preliminary remarks and hears representations of counsel as
to 443 Motion to Strike 436 Answer to Amended Complaint, 451 Motion for
Acceptance of Late File Answer re 436 Answer to Amended Compliant and
468 Motion for Acceptance of Late Filed Answer re 451 Motion, 450 Response
to Motion, 465 Motion for Entry of Clerks Default,436 Answer to Amended
Compliant and 477 Emergency Motion to Continue Magistrate Judge Hearing
ofNovember 14.
The Court sets forth its findings on the record and denies 443 Motion to Strike
436 Answer to Amended Complaint, by doing so, the Court grants 451 Motion
for Acceptance of Late File Answer re 436 Answer to Amended Compliant.

The Court grants 468 Motion for Acceptance of Late Filed Answer re 451
Motion, 450 Response to Motion,465. Motion for Entry of Clerks Default,43.6
Answer to Amended Compliant.
The Court denies 465 Motion for Entry of Clerks Default and477 Emergency
Motion to Continue Magistrate Judge Hearing ofNovember 14, as stated on
the record.
(Copies have been distributed pursuant to the NEF - EMG) @ntered:

tu14l20t6)

\-

TRANSCRIPT of Proceedings, 199 Order on Motion to Expunge Lis Pendens,
Order on Motion to Dismiss, Order on Motion to Set Aside, Order on Ex Parte
Motion, Order on Motion to Strike, Order on Motion to Stay, Order on Motion
to Extend Time/Shorten Time regarding Dispositive matter, Order on Motion
to Amend/Correct Complaint, Motion Hearing, held on 1123/2015, before
Judge Richard F. Boulware,II. Court Reporter: Paticia L. Ganci
pattyganci@gmail.com. Any Redaction Request is due by 121612016. Redacted
Transcript Deadline is set for 12/1612016. Release of the Transcript Reskiction
is set for 211312017. Before release date, the tanscript may be viewed at the
court public terminal or purchased through the reporter. Transcript Order form
is available on court website. After that date it may be obtained through the
court reporter or PACER. (PG) (Entered: 0612812017)

finsl20t6

s65

11/t 612016

482 IT IS HEREBY ORDERED that Plaintiffs Motion to Strike Untimely October
10,2016 Answer of the sPS Defendants (ECF No. 443 ) is denied. IT IS
FURTHER ORDERED that Defendants Select Portfolio Servicing, Inc., Credit
Suisse First Boston Mortgage Securities Corporation, DLJ Mortgage Capital,
Inc., Bill Koch, U.S. Bank, N.A., and Kimberly Clarks Motion for Acceptance
of Late Filed Answer (ECF No.451 ) is granted.IT IS FURTHER ORDERED
that Defendant Wells Fargos Motion for Acceptance of Late Filed Answer
(ECF No. 468 ) is granted. Signed by Magistate Judge George Foley, Jr on
1111612016. (Copies have been distributed pursuant to the NEF - DKJ)
(Entered: llll712016)

1111712016

483

L+t-^.tt^^c-.,r,,-^^,,-+- ^^,,/^-i-l.in/T'!lztPnf ^111n1?641OO51O??R-T. 1

1-1

9/412017

Page bU

CMIECF - nvd - District Version 6.1

oI

/Y

due
RESPONSETo 46l Motion, filed by Defendant Michelle Nguyen' Replies
by 1112712016. (Attachments:# I Certificate of Service)(Bagula, Mark)
(Entered: llll712016)
t112112016

\-

481 Order on
484 Mail Returned as Attempted Not Known. Unable to Forward re
Motion to Strike, Orderbn Motion for Entry of Clerks Default, Order on
to
Motion to Continue Magistrate Judge Hearing, Motion Hearing, addressed
Joseph Noel. (DKJ) (Entered: 1112212016)

JOINDER to 4.83 ResPonse to Motion ; filed by Defendants MerscoqP
(MERS).
Holdings, Inc., Mortgage Electronic Re gistration Systems, Inc.
(Stutman, Erica) (Entered: I I 123 l20l 6)

ty23l20l6

485

1v2312016

486

ty23l20t6

487

ty30l20t6

488

1U3012A16

489

t113012016

Relief from S cheduling
490 MOTI ON to withdraw 467 Motion for A1 ternative
1 I 130120 1 6)
(Entered
ohn)
Order by Plaintiff Michael Harkey (v erant, J

r2l1612016

Title Company
49r RESPON SE to 489 Motion,, filed by Defendant o ld Republic
I 2ll 6120 I 6)
(Entered:
(Moore
Terry
)
of N evada. Replies due by I 2123120 I 6

t2lr7l20r6

Allen,
JOIND ER to 483 Response to Motion filed by D efendants Christina
Fidelity
LLC,
EarI Beutler, Eve Beutler ) Black Knight F inancial Services,
I 6)
N ational Financial Inc, Shoua Moua. (Heffrrer t James) (Entered I I 123120
Mortgage
JOINDER to 483 Response to Motion t filed by Defendants C SM c
B acked Trust 2007 -6, Kimber ly Clark, Credit Suisse First B oston Mortgage
Select Portfolio
Securities Corporation, D LJ Mortgage Capital, Inc Bill Koch,
Defendants Julee
Servicing, U .s. B ank, N .A. , w ells F argo Bank, N .A., Conso I
I 6)
I
1123120
Metters, Patrick Pittrnan. (Crowton, Chelsea) (Entered
Reconsider
OBJECTI ONS re LR IB 3- 1 or MOTI ON for District Judge to
by
due
Order re 482 Order )) by Plaintiff Michael Harkey Responses
t2l17 20 1 6. (v erant, John) (Entered: I I l3 0120 1 6)

MOTION re 4M Motion to Extend Time/Shorten Time regarding Dispositive
Objections re LR
matter, 480 Motion, 435 Reply to Response to Motion, 488
Motion for
IB 3- I or Motion for District Judge to Reconsider Order ) 41t
Michael Harkey
Sanctions re Discovery 432 Response to Motion, by Plaintiff
t3012
0 I 6)
I
I
Responses due by I 2lt 7 /20 I 6. (v erant, John) @ntered

or Motion for Distict Judge to
492 RESPONSE to 488 obj ections re LR IB 3- 1
Trust 2007 -6,
Reconsider Order t frled by Defendants CSM C ,Mortgage Backed
Kimberly Clark, Credit Sui sse First Boston Mortgage Securities Corporation,
U .S Ba$k,
D LJ Mortgage Capital, Inc. , Bill Koch, Seiect Portfolio Servicing,
Patrick
N .A. , wells F argo Bank, N .A., Consol D efendants Julee Metters,
Chelsea)
@ntered I 2117 120 1 6)
Pittman. Replies due by I 2124120 1 6 ( Crowton,

1212012016

493

t2123120t6

494

for
JOIND ER to 492 RESPON SE to 48 8 Objections re L R IB 3 I or Motion
Properties,
District Judge to Reconsider Order filed by Defendant Safeguard
on
LLC. Replie s due by I 2127 t20I 6. (Burden, J ack) Modified event
I 212 1 l2 0 I 6 (TR). @ntered I 2120120 I 6 )
HarkeY. (Verant,
REPLY to Response to 489 Motion filed by Plaintiff Michael
John) (Entered: 12123 l20l 6)

L++-o.//o^f -rrrt rrcnnrrrrc onw/noi-hin/T)ktRnt n12'lO).164100510338-L

I

1-1

9l4l20rl

Page69 ot79

CM/ECF - nvd - District Version 6.1

MOTION for Leave to File Reply (Leave of Court Required Pursuant to IR IB
3-I) by Plaintiff Michael Harkey. (Verant, John) (Entered: 12127/2016)

12/272016

495

n/28DAl6

496 JOINDER 492 RESPONSE , filed by Defendant Michelle Nguyen. (Bagula,
Mark) Modified on 12/29/2016 to create docket entry relationship (TR).
(Entered: 12/2812016)

0l/11 /20 1 l

497

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware, II,
on 1/1 112011.
a hearing is set for February 6. 2017 at 3:30 PM in LV
Courtroom 7D before Judge Richard F. Boulware II. The hearing will address

IT IS ORDERED that

the following: 363 MOTION to Dismiss by Defendant Old Republic Title
Company of Nevada, 366 MOTION for Reconsideration of Cause of Action
for Quiet Title, 367 MOTION for Hearing, 384 MOTION to Extend Time
regarding discovery/nondispositive matter, 385 MOTION for Leave to File
Addendum to 366 Motionfor Reconsideration,3SS Amended MOTION for
Leave to File 366 Motionfor Reconsideration.

A hearing is set February 6,2017. Counsel for the parties are ordered to appear
at this hearing. Failure to appear at the scheduled hearing time may result in the
imposition of sanctions, including but not limited to monetary sanctions,
granting of the opposing parly's motion or case-dispositive sanctions. Each
party shall have three days to notiff the Courtroom Administrator by email if it
is unable to attend and propose an alternative hearing time after consulting with

opposing counsel.

\-

(Copies have been distributed pursuant to the NEF - BEL)(no image attached)
@ntered: 01/1112017)

0tlt 3120t7

498 RESPONSETo 495 Motion for Leave to File, filed by Defendants CSMC
Mortgage Backed Trust 2007-6, Kimberly Clark, Credit Suisse First Boston
Mortgage Securities Corporation, DLJ Mortgage Capital,Inc., Bill Koch,
Select Portfolio Servicing, U.S. Bank, N.A., Wells Fargo Bank, N.A., Consol
Defendants Julee Metters, Patrick Pittman. Replies due by 112012017.
(Crowton, Chelsea) (Entered: 01 11312017)

0t/1812017

502 Mail Returned as Undeliverable re 497 Minute Order Setting Hearing on
Motion addressed to Joseph Noel. No New Address- Did Not Resend (JM)
(Entered: 01123/2017)

01120D017

499

REPLY to Responseto 495 Motion for Leave to File filed by PlaintiffMichael
Harkey. (Attachments: # I Exhibit Exhibit A)(Kern, Robert) (Entered:
01/20/2017)

01/2012017

s00

FIRST NOTICE: of Non-Compliance with Local Rule IC 5-1 that Robert
Kern is in violation of Local Rule LR IC 5-1 asto 499 REPLY.
The signatory must be the attorney or pro se party who electronically files the
document.

htfnq'//eef nvd rrsnnrrrtq onwle.oi-hin/DktRnl nl?10?1641005103i8-T.

I 1-l

9/4/2017

Page 70 of 79

CM/ECF - nvd - District Version 6.1

Attorney advised in the {uture to file documents in accordance with the Local
Rules governing Electronic Case Filing. (no image attached) (TR) (Entered:
0U2012017)
01t2312017

s01

REPLY to Response to 495 Motion for Leave to File filed by Plaintiff Michael
Harkey. & Exhibit A (replacing Doc. 499 timelyfiled by Attorney Kern due to
CIWECF access problem by lost login information of lead counsel)
IDENTICAL FILING as Doc. 499 (Yerant, John) (Entered: 0112312017)

0l/2512017

503

MOTION to Appear Telephonically; filed by Defendants Merscorp Holdings,
Inc., Mortgage Electonic Registration Systems,Inc. (MERS). Responses due
by 21812017. (Byrne, Patrick) (Entered: 01/2512017)

0U26120t7

504

MOTION for Leave to Appear Telephonically; filed by Defendant Michelle
Nguyen. (Bagula, Mark) (Entered: 0112612017)

0U27120t7

505

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware,II,
on 112712017.
IT IS ORDERED that Defendants Merscorp Holdings,Inc., Mortgage
Electronic Registration Systems, Inc's 503 Motion to Appear Telephonically is
GRANTED.

IT IS FURTHER ORDERED that Attorney Clay M. carlton shall join the
hearing telephonically by dialing telephone no. (877) 336-1829,Access Code:
3616356, five minutes prior to the hearing. Please remain on the line until such
time as the Court joins the call and convenes the proceedings. The call must be
made on a land line. The use of a cell phone or speaker phone during the
proceedings is prohibited.

\-

(Copies have been distributed pursuant to the NEF - BEL) (Entered:
0112712017)
0210U2017

506

MINUTE ORDERIN CHAMBERS of the Honorable Richard F. Boulware,II,

on2lll20|l.
IT IS ORDERED that Defendant Michelle Nugyen's 504 Motion for Counsel
to Appear Telephonically at the February 6,2017 hearing is GRANTED.

IT IS FURTHER ORDERED that Attorneys Mark Bagula and Bridget Bums
shall join the hearing telephonically by dialing telephone no. (877) 336-1829,
Access Code: 3616356, five minutes prior to the hearing. Please remain on the
line until such time as the Court joins the call and convenes the proceedings.
The call must be made on a land line. The use of a cell phone or speaker phone
during the proceedings is prohibited.
(Copies have been distributed pursuant to the NEF - BEL) (Entered:
0210y2017)
02/06/2077

508

MINUTES OF PROCEEDINGS - Motion Hearing held on 21612017 before the
Honorable Richard F. Boulware, Ii. Crtrm Administrator: Blanca Lenzi;Pla
Counsel: John Verant, Esq.; Def Counsel: Xiao Wen Jing, Esq., Patrick By'ne,

hffns.//enf nvd rrsc.nrrrts onv/csi-hin/T)ktRnt nl?10).16410051 033R-L

l

1

-1

9/4/2017

Page7l of79

CM/ECF - nvd - District Version 6.1

Esq., Terry Moore, Esq., James Heffner, Esq., Chelsea Crowton, Esq., Kristin
Schuler-Hintz, Esq., Appearing Telephonically: Clay Carlton, Esq. and Mark
Bagula, Esq.; Court Reporter/Recorder: Patty Ganci; Time of Hearrng: 3:41
PM - 4: I0 PM; Cotxtoom 7D.

laintiff Michael Harkey is present. The Court makes preliminary statements
and hears representation of counsel regarding the motions pending before the
Court.

For the reasons stated on the record at the hearing,

IT IS ORDERED that Defendant Old Republic's 363 Motion to Dismiss Old
Republic Title Company ofNevada is GRANTED with prejudice.

IT IS FURTHER ORDERED that Plaintiffs 366 Motion for Reconsideration is
DENIED.
IT IS FURTHER ORDERED that Plaintiffs 367 Motion for hearing is
DENIED.
IT IS FURTHER ORDERED that Plaintiffs 384 Motion for Brief Extension
regarding DiscoverylPlan Deadlines is DENIED.
IT IS FURTHER ORDERED that Plaintiffs 385 Motion for Leave to File
Addendum to 366 Motion for Reconsideration is DENIED.

\-

IT IS FURTHER ORDERED that Plaintiffs 388 Amended Motion for Leave
to file Addendum to 366 Motion for Reconsideration is DENIED.
IT IS FURTHER ORDERED that Defendants shall refile the proposed order to
lift. tis penderes previously filed, emailing the courhoom deputy should the
proposed order not be processed within one week of e-filing.
Upon confirmation of the Court's schedule, a minute order shall issue
scheduling an evidentiary hearing to discuss 411 Joint Motion for Sanctions re
Discovery, and case-dispositive sanctions regarding Plaintiffs failure to
comply with discovery requests.

IT IS FURTHER ORDERED that the transcript of the hearing shall
the written Opinion and Order of the Court.

serue as

(Copies have been distributed pursuant to the NEF - BEL) (Entered:

o2l07l2ot7)
02107120t7

s07

MOTION to Amend/Correct 199 Order, filed by PlaintiffMichael Harkey
Responses due by 212112017. (Verant, John) (Entered: 02107DAll)

0211512017

s09

Submission of PROPOSED ORDER filed by Defendants Kimberly Clark,
Credit Suisse First Boston Mortgage Securities Corporation, Bill Koch, Select
Portfolio Servicing, U.S. Bank, N.A., Wells Fargo Bank, N-A., Consol

L++*^. ll^^T^',A rrannrrrlc ^^',/nni-Li-/T]lz+Dnf nli1A1aA/.1nn51n??R-T

1 1-1

qt4Do1'l

UM/HC}'' - nvd -

Distict Version

Page72 of79

6.1

Defendants Julee Metters, Patrick Pittman. (Attachments: # I Exhibit A)
(Crowton, Chelsea) (Entered: 0211512017)
021t6120t7

510

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware, II,
on211612017.

IT IS ORDERED that 507 Motion to Amend/Correct is DENIED for lack of
good cause or a legal basis to grant the relief and because Plaintiff has had an
opportunity to review the proposed order expunging lis pendens(Copies have been distributed pursuant to the NEF - BEL) (Entered:
0211612017)
0211612017

5ll

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware, II,
on211612077.

IT IS ORDERED that an Evidentiary hearing is set for Friday. March 3. 2Q.17
PM in LV Courtroom 7D before Judge Richard F. Boulware,II. The
at3
hearing will address: 4l I Motion for Sanctions re Discovery and case'
dispositive sanctions regarding Plaintiffs failure to comply with discovery
requests.

A hearing is set March3,2Ol7. Counsel for the parties are ordered to appear at
this hearing. Failure to appear at the scheduled hearing time may result in the
imposition of sanctions, including but not limited to monetary sanctions,
granting of the opposing party's motion or case-dispositive sanctions. Each
p*fy rtiutt have three days to notif the Courtroom Administrator by email at
6tu*u_t.*i@nvd.uscourts.gov if unable to attend and propose an alternative
hearing time after consulting with opposing counsel.

\-

(no image attached) (Copies have been distributed pursuant to the NEF BEL) (Entered: 02/1612017)
02116120t7

512 ORDER granting 414 Motion to Expunge Lis Pendens (See order for
DeadlineJ and Details). Signed by Judge Richard F. Boulware,ll on2ll 612017.
(Copies have been diskibuted pursuant to the NEF - JM) (Entered:0211 7t2017)

0212212017

513

02124120t7

514

02124/2017

518

TRANSCRIPT of Proceedings, 508 Order on Motion to Dismiss, Order on
Motion for Hearing, Order on Motion to Extend Time/Shorten Time regarding
Discovery or Nondispositive matter, Order on Motion for Leave to File,
Motion liearing, held on 21612017,before Judge Richard F. Boulware, II. Court
Reporter: Patricia L. Ganci pfiganci@gmail.com. Any Redaction Request is
aue Uy 311512017. Redacted Transcript Deadline is set for 312512017. Release
of the Transcript Restriction is set for 512312017. Before release date, the
transcript -uyb. viewed at the court public terminal or purchased through the
reportei. Transcript Order form is available on court website. After that date it
may be obtained through the court reporter or PACER. (PG) (Entered:
02t22120t7)
SUBPOENA Issued as to Kristin Schuler-Hintz. (JM) (Entered: 0212712017)

httns.//enf nwd rrcenrrrfq onv/coi-hin/T)ktRnt

n121

0)76410051 0?3R-L

I

l -1

9/4/2017

Page73 of79

CM/ECF - nvd - District Version 6.1

Undeliverable re 572 Order on Motion to Expunge Lis
Pendens addressed to Joseph Noel. No New Address - Did Not Resend. (JM)
(Entered: 0212812017)

Mail Returned

as

0212712017

515

MOTION to Amend/Conect re: 365 Order, filed by Plaintiff Michael Harkey
Responses due by 311312017. (Kern, Robert) (Entered: 0212712017)

0212712017

516

MOTION re365 Order, filed by Plaintiff Michael Harkey. Responses due by
3

0212712011

517

I 13 12017 .

(Verant, John) (Entered: 02127 12017)

DECLARATION of John William verant re 5 13 Transcript,,, 5l I Minute
Order Setting Hearing,,,,, Minute Order Setting Hearing on Motion,,,, I in
Response to Orderfor Hearingby Plaintiff Michael Harkey. (Verant, John)
(Entered: 02127/2017)

0212812017

519

NOTICE: Attorney Action Required to 516 Motion. ERROR: Document
appears to be missing pages. CORRECTION: Attorney John Verant advised
to correct the deficiency and file a Notice of Conecled Image/Docament event
under the Notices category and link to 516 Motion. (no image attached)(TR)
(Entered: 0212812017)

0212812017

s20 EXHIBIT( s) Exhibit List and Exhibits A-F to 517 Declaration ; filed by
Plaintiff Michael Harkey' (Verant, John) @ntered : 021 28 12017)

0212812017

521

WITHDRAWAL of Motion re 516 Motion ;by PlaintiffMichael Harkey Filed
in Enor. (Verant, John) @ntered: 0212812017)

0212812017

522

DECLARATION of Wendy Alison Nora re 5l I Minute Order, filed by
PlaintiffMichael Harkey. (Attachments: # I Exhibit List and Exhibits 1-13)
(Verant, John) (Entered: 0212812017)

0212812017

523

DECLAIL{TION of Michael Harkey re 511 Minute Order, filed by Plaintiff
Michael Harkey. (Verant, John) @ntered: 0212812017)

0310y2017

03tOt12017

524 DECLARATION re 511 Minute Order Signed by Michael Harkey (unssigned
Versionfiled at Doc. 523 in error) by Plaintiff Michael Harkey. (Verant, John)
(Entered: 0310112017)
s25 DECLARATION of Wendy Alison Nora with imaged signature Content
Approvedfor E-Filing but signature was missing in error; discovered error on
Mirch I , 201 7 and this filing corrects filing of the unsigned version by
plaintiffMichael Harkay. (Attachments: # I Exhibit Exhibit List and Exhibits
I - 1 3)(Verant, John) @ntered: 03 l0l 12017)

0310v20t7

526

SUBPOENA Returned Executed as to Kristin Schuler-Hintzre 514 Subpoena
Issued (Verant, John) (Entered: 0310112017)

0310212017

527

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware,II,
on31212017.

IT IS ORDERED that the Evidentiary hearing set for Friday, March 3,2017 is
ADVANCED in time ONLY to 2:00 PM in LV Courtroom 7D before Judge
Richard F. Boulware, II. The hearing will address: 411 Motion for Sanctions re

Ls-^. tt^^c -.,A rrannrr*tn ^^.,/^-i-Li-/T\LIDn+

^r,1 A)?AAlnns1n??R-T

I

1

-1

ql4n017

Page'14 oI'19

UM/.bUl' - nvd - Ijrstnct Verston 6.1

Discovery and case-dispositive sanctions regarding Plaintiffs failure to
comply with discovery requests.
(no image attached) (Copies have been distributed pursuant to the NEF BEL) (Entered: 03 10212017)
0310312017

03103120t7

s28 TRANSCRIPT of Proceedings, 349 Motion Hearing,,,,, Terminate
DeadlinesAlearings,,,, Before release date, the transcript may be viewed at the
court public terminal or purchased through the reporter/transcriber. Transcript
Order form is available on court website. After that date it may be obtained
through the court reporter or PACER. (PG) (Entered: 03103/2017)
532 MINUTES OF PROCEEDINGS - Motion Hearing held on 3BDan before
Judge Richard F. Boulware, II. Crtrm Administrator: Blanca Lenzi;Pla
Counsel: Robert Kern, Esq., John Verant, Esq.; Def Counsel: Mark Bagula,
Esq. Kristin Schuler-Hintz, Esq., James Heffner, Esq., Patrick Byrne, Esq.,
Chelsea Crowton, Esq., Jack Burden, Esq.; Court Reporter/Recorder: Patty
Ganci;Time of Hearing: 2:21 PM'2:59 PM; Courhoom: 7D'
The Plaintiff is present. The Court makes preliminary statements and hears
representations of counsel regarding the 411 Joint Motion for Sanctions.

IT IS ORDERED that the 411 Motion for Sanctions is GRANTED against the
Plaintiff. The Plaintiffs claims are all DISMISSED with prejudice. A written
order

will

issue.

IT IS FURTHER ORDERED that defense counsel's motion for sanctions is due
by March 31,2017. The parties are directed to submit a joint submission for
requests for costs.

\-

(Copies have been distributed pursuant to the NEF - BEL) (Entered:

03lt0l2o17)
0310612017

s29

NOTICE re 512 Order; filed by CSMC Mortgage Backed Trust 2007-6,
Kimberly Clark, Credit Suisse First Boston Mortgage Securities Corporation,
DLJ Mortgage Capital,Inc., Bill Koch, Julee Metters, Patrick Pittrnan, Select
Portfolio Servicing, U.S. Bank, N.A., Wells Fargo Bank, N.A.. (Crowton,
Chelsea) (Entered: 03 10612017)

0310812017

530

03108D017

531

03109120t7

s35

NOTICE OF APPEAL as to 365 Order, 508 Order, by Plaintiff Michael
Harkey. Filing fee $ 505, receipt number 0978-4510829. E-mail notice CIIEF)
sent to the US Court of Appeals, Ninth Circuit. (Attachments: # I
Representation Statement Pursuant to Circuit Rule 3-2)fferant, John) (Entered:
03/08/2017)
Designation of Transcripts and Transcript Order forms and instructions for 530
Notice of Appeal,. The forms may also be obtained on the Court's website at
www.nvd. us courts. sov/Fo rms. aspx. (TR) (Entered : 03 I 08 120 17 )
USCA ORDER for Time Schedule as to 530 Notice of Appeal, filed by
Michael Harkey. USCA Case Number 17-15421. (MMM) @ntered:
03t20120t7)

httns.//ecf nvd,rrscorrrts.qov/asi-hin/T)lctRnt.nl?102364100510338-L

1

1-1

91412017

Page'15 ot'19

UM/bUr' - nvd - Dtstnct Verston 6.I

\-

0311312017

533

NOTICE OF BANKRUPTCY Upon the Record by Plaintiff Michael Harkey
(Attachments: # 1 Attachmen|(JM) (Entered: 0311512011)

0311112017

534

Mail Returned

03120/2017

536 NOTICE OF BANKRUPTCY Upon the Record: Meeting of Creditors to be
held on 4llol2ol7 1:30pm, Minneapolis, MN (JM) (Entered:03122/2017)

03/2012017

s66 TRANSCRIPT of Proceedings, 532 Order on Motion for Sanctions re
Discovery, Motion Hearing, held on 31312017, before Judge Richard F.
Boulware,II. Court Reporter: Patricia L. Ganci patlyganci@gmail.com. Any
Redaction Request is due by 411012017. Redacted Transcript Deadline is set for
412012017. Release of the Transcript Restriction is set for 611812017. Before
release date, the transcript may be viewed at the court public terminal or
purchased through the reporter. Transcript Order form is available on court
website. After that date it may be obtained through the court reporter or
PACER. (PG) (Ente red: 06/28 12017)

0313U2017

s37

Joint MOTION for Attorney Fees as Sanction by Defendant Quality Loan
Service Corporation. Responses due by 411412017. (Attachments: # 1
Declaration Declaration of Kristin Schuler-Hintz in Support of Sanction
Request, # 2.Declwation Declaration of Mark BagUla in Support of Sanction
Request, # j Declaration Declaration of James Haffrter in Support of Motion
FoiSanctions,# 4.Declaration Declaration of Chelse A. Crowton in Support of
Sanctions Request) ( s chuler-Hintz, Kri stin) (Entered : 03 I 3 1 I 20 1 7 )

03/3tDAn

538

JOINDER to S3lMotion for Attorney Fees filed by Defendant Safeguard
Properties, LLC. @urden, Jack) (Entered: 0313112017)

0313U2017

539

JOINDER to 537 Motion for Attorney Fees, ; filed by Defendants Merscorp
Holdings, Inc., Mortgage Electronic Registration Systems, Inc. (MERS).
(Attachments: # I Exhibit A,# 2 Exhibit B)(stutnan, Erica) (Entered:
0313tl20t7)

04/0312017

s40

Undeliverable re 532 Order addressed to Joseph Noel,
Envelope marked: return to sender - unable to forward. No new address
available. Clerk did not resend. (NEV) (Entered: 0311712017)
as

BILL OF COSTS by Defendant Safeguard Properties, LLC. Objection to Bill
of costs due by 411712017. Tax Bill of costs by 412412017. (Burden, Jack)
(Entered: 0410312017)

0410312017

541

BILL OF COSTS by Defendant Quality Loan Service Corporation. Objection
to Bill of Costs due by 411712017. Tax Bill of Costs by 412412017. (SchulerHintz, Ikistin) @ntered: 0410312017)

0410312017

542

ERRATA to 538 Joinder filed by Defendant Safeguard Properties, LLC.
(Burden, Jack) (Enter ed: 0410312017)

04t0312017

543

ERRATA to 537 Motion for Attorney Fees, ; Declaration of chelsea A.
Crowton, Esq. in Support of Sanctions Request filed by Defendants CSMC
Mortgage Backed Trust 2007-6, Kimberly Clark, Credit Suisse First Boston
tvtortgage Securities Corporation, DLJ Mortgage Capital,Inc., Bill Koch,
Seleci portfolio Servicing, U.S. Bank, N.A., Wells Fargo Bank, N.A., Consol

httn.s.//ecf.nvrl.rrscourfs.pov/csi-bin/T)ktRnt.nl?102364100510338-L

1l-1

9t412017

UM/.bCl - nvd - Drstnct Versron

Page 76

6.1

Defendants Julee Metters, Patrick Pittman. (Attachments: #
Exhibit B)(Crowton, Chelsea) (Entered: 04 I 03 1201 7)
0410512017

544

of 79

l Exhibit A,# 2

AFFIDAVIT of Appearance of Counsel by Plaintiff Michael Harkey. (Pressel,
Wayne) (Entered:

04 I

0512011)

BILL OF COSTS

and Affidavit of Mark Bagula in Support of Bill of Costsby
Defendant Michelle Nguyen. Objection to Bill of Costs due by 4119/2017 . Tax
Bill of Costs by 412612017. (Bagula, Mark) (Entered: 0410512017)

0410512017

545

0410612017

546 Transcript
by Plaintiff
Michael Harkey re 530 Notice of Appeal,. (Pressel, Wayne) Modified event on
4 I 612017 (EDS\. (Entered: 041 0612017)

04110120t7

547

NOTICE OF APPEAL as to 532 Order on Motion for Sanctions re
Discovery,,,,, Motio n He aring,,,,, Terminate Deadline s/Flearings,,,, by Plaintiff
Michael Harkey. Filing fee $ 505, receipt number 0978-4555771.B-mail notice
QVEF) sent to the US Court of Appeals, Ninth Circuit. (Verant, John) (Entered:
04/r012017)

04110/2017

548

Designation of Transcripts and Transcript Order forms and instructions for 547
Notice of Appeal,. The forms may also be obtained on the Court's website at
www.nvd.usco urts. sovlForms. aspx. (TR) (Entere d : 0 4 I I 0 120 17 )

04/tu20t7

549

USCA ORDER for Time Schedule asto 547 Notice of Appeal, filed by
Michael Harkey. USCA Case Number 17-15683. (ADR) @ntered:

Designation

04ltU20t7)

\-

0411412017

550

RESPONSETo 537 Motion for Attorney Fees,, filed by PlaintiffMichael
Harkey. Replies due by 4/2112017. (Pressel, Wayne) (Entered: 0411412017)

0411412017

551

RESPONSETo 537 Motion for Attorney Fees,, filed by Plaintiff Michael
Harkey. Replies due by 4121/2017. (Verant, John) @ntered: 0411412017)

0411712017

552

OBJECTION to 545 Bill of Costs, 540 Bill of Costs, 541 Bill of Costs ; filed
by Plaintiff Michael Harkey. Response to Objection to Bill of Costs due by
4 124 12017 . @ressel, Wayne) (Entered: 04 I l7 12017)

0412112017

553

Reply to 550 RESPONSE to 537 Motion for Attorney Fees filed by Defendant
Kevin R McCarthy, Quality Loan Service Corporation, and Vanessa Gonzales.
(Schuler-Hintz, Kristin) Filed inconectly by
@
counsel. Modified event and text on 4/2412017 (EDS). (Entered: 0412112017)

04t2112017

554

Reply to 551 RESPONSETo 537 Motion for Attorney Fees,, filed by
Defendants Vanessa Gonzales, Kevin RMcCarthy, Quality Loan Service
(Schuler-Hintz, Kristin) Filed
C orporati on. @
on
4/2412017 (EDS). @ntered:
event
counsel.
Modified
inconectlv bv
04DU2017)

04121120t7

555

ERROR: Document appears to be a duplicate of E. CORRECTION:
Document terminated. (EDS)

h++ns'//eef nvd rrse.nrrrts oov/coi-hin/DktRnt.nl?102364100510338-L

I

l-1

9/4/2017

vagellollv

uvr/-uu.t. - nvo - l.,lsrlct verslon o.I

Respense ef

Platntrf to

(Entered: 0412112017)

@ien;

0412112017

556

553 Response
JOINDERto 554 Responseto Motion,
to Motion, ; filed by Defendants Merscorp Holdings,Inc., Mortgage Elechonic
Registration Systems, Inc. (MERS). (Stutman, Erica) Modified text oU
4 124 12011 DS]r. (Entered: 04 121 /2017)

0510412017

557

ERRATA to S2l.Declaration, ; filed by PlaintiffMichael Harkey. (Pressel,
Wayne) (Entered: 05/0412011)

0s10512017

5s8

NOTICE re Bankruptcy Documents. (JM) (Entered: 0510812017)

0s108/20t7

560

NOTICE re Bankruptcy Documents. (JM) (Entered: 05/1012017)

0510912017

ss9

0slt0l20t7

561

0s1t112017

562

\-

bV
MOTION to Withdraw as Attomey
Securities
Corporation,
Boston
Mortgage
Suisse
First
Kimberly Clark, Credit
DLJ Mortgage Capital, Inc., Bill Koch, Julee Metters, Patick Pitfrnan, Select
Portfolio Servicing, U.S. Bank, N.A., Wells Fargo Bank, N.A. (Rubin, Stacy)
Filed incorrectlv by cor.rnsel. Modified event to conform to local ryl9s on
5 19 /2017 GDS\. (Entered: 05 /09 12017)

ORDER granting 559 Motion to Withdraw as Attorney. Chelsea Crowton
withdrawn from the case. Attorney Stacy H. Rubin for Kimberly Clark,Stacy
H. Rubin for Credit Suisse First Boston Mortgage Securities Corporation,Stacy
H. Rubin for DLJ Mortgage Capital,Inc.,Stacy H. Rubin for Bill Koch,Stacy
H. Rubin for Julee Metters,Stacy H. Rubin for Patick Pitnnan,stacy H. Rubin
for Select Portfolio Servicing,stacy H. Rubin for U.S. Bank, N.A.,Stacy H.
Rubin for Wells Fargo Bank, N.A. added. Signed by Magistrate Judge George
Foley, Jr on 51912017. (Copies have been distributed pursuant to the NEF - JM)
(Entered: 0511012017)
TRANSCzuPT DESIGNATION by PlaintiffMichael Harkey te 547 Notice of
Appeal, 513 Transcript,,, 508 Order on Motion to Dismiss ),,,,,,,'2,",)" Order on
Motion for Hearing,,,,,,),, Order on Motion to Extend Time/Shorten Time
regarding Discovery or Nondispositive matter,,,)),,,, Order on Motion for Leave
to Filerrrrrrr rrrrrrrrr, Motion Hearingrrrrrrr, Terminate Deadlines/flearingsrrrrrr,
532 Order on Motion for Sanctions re DiscovatY,,,,, Motion Hearing,,,,,
Terminate DeadlinesAlearings,,,, 528 Transcnpt,437 Transcript,, 253 Order on
Motion to Stay,,,,rr,, Order on Motion to Strike,,,,r,,, Motion Hearing,r,rr,,, Case
Stay Lifted,,,,,,,, Set/Reset Deadlines,,,,,,, 381 Transcript,,295 Transcript,, 199
Order on Motion to Expunge Lis Pendens,,,,,,,,,,, Order on Motion to
Dismiss,,,,,,,,,,, Order on Motion to Set Aside,,,,,,,,,,, Order on Ex Parte
Motionrrrrr, )rr)rtrrr)222t)r)2trrrr)))> Ordgr on Motion to
Strikerrrrrrrr rrrrrrrr)rrrr)rr)r)))trr2D)rrr))))ntrr)D)r2)))2trrrtrrz)2,r),, Otder on Motion to
',
Sta],,,,,,,,,, ,,,,)rrrrrD Order on Motion to Extend Time/Shorten Time regarding
Dispositive mattet,),,,,,,,, Order on MotiOn tO Amend/Correct Complaint, )),)")','
Moti on Hearing,,,,,,,,,, 3'l 9 Motion Hearing,,,,,, Terminate
Deadlines/Flearings,,,,, 365 Order on Motion to
Dismissrrr, )r)))r)2)rrr)))rrrzrrtrttttr)rrrtrtttttrr)r)rr)tr)ttr)trrrrtrrtrrttr,) ,,)""))))""2' Order on
Motion
Motion for Partial Summary Judgmentr,
'rrrrrrrrr)rrrrr,r,,rr',),)r)r),),,r,

hrrns'//eef nwd rrscortrfs.sovlcsi-bin/DlctRot.ol?102364100510338-L

I

1-l

91412017

CM/ECF - nvd - District Version 6.1

Page78 of79

Hearingrrrrrrrrrrr, Terminate DeadlinesAlgarilgs,,,rrrrrrrr, Set/Reset Deadlines &
I Order on Motion to Strike,,,, ))))rr)r, Order on Motion for
Entry of Clerks Default,,,,,,,,,,,,,) Order on Motion to Continue Magistrate
Judge Hearing,,,,,,, Motion Hearing,,,,,,. All Transcripts have been prepared
except Audio Recording of November 14, 2016 Hearing; thefollowing
Transcripts have not beenfiled: l/23/2015; 2/11/2016; II/14/2016; 2/6/2017
and 3/3/2017 (Pressel, Wayne) (Entered: 05lll/2017)
Hearings,r,,r)rrrrr,48

0511912017

563

NOTICE of Hearing in Bankruptcy Court. (JM) @ntered:0512212017)

0611412017

567

TRANSCRIPT of Proceedings,48l Order on Motion to Strike, Order on
Motion for Entry of Clerks Default, Order on Motion to Continue Magistrate
Judge Hearing, Motion Hearing, held on 1111412016, before Magistrate Judge
George Foley, Jr. Transcriber: Patricia L. Ganci pattyganci@gmail.com. Any
Redaction Request is due by 7/5/2017. Redacted Transcript Deadline is set for
7/1512017. Release of the Transcript Restriction is set for 9112/2017 , Before
release date, the transcript may be viewed at the court public terminal or
purchased through the transcriber. Trans$ipt Order form is available on court
website. After that date it may be obtained through the court reporter or
PACER. (PG) (Entercd: 06128/2017)

06119t2017

564

MINUTE ORDER IN CHAMBERS of the Honorable Richard F. Boulware,II,
on 611912017.

IT IS ORDERED that 4lZ, ff , and 418 Motions for Summary Judgment and
444 Motion to Extend Time re 415 Motionfor Summary Judgment are denied
without prejudice in light of the Court's dismissal of the case as a sanction for
non-compliance with Court's 532 Orders.
(Copies have been distributed pursuant to the NEF - BEL) @ntered:
06t19/2017)
0710612017

568

ORDER granting 411 Motion for Terminating Sanctions. All of Plaintiffs
claims are dismissed with prejudice. Signed by Judge Richard F. Boulware,II
on7/5/2017. (Copies have been distributed pwsuant to the NEF - JM)
(Entered: 07107/2017)

07107120t7

s69

CLERK'S ruDGMENT in favor of Defendants against Plaintiffs. Signed by
Clerk of Court Debra K. Kempi on7/7/2017. (Copies have been distributed
pwsuant to the NEF - JM) (Main Document 569 replaced on7/712017) (JM).
(Entered: 07/0712017)

PACER Seruice Center
Transaction
09/04/2017 l8:06:28

ACER

l:2537544

F.,",*"r"n
httnc'//enf nrrrl rrcnnrrrfc onrr/noi-hin/T)lrtPnf

-l

n1?1O??64.1 OO5l

Code:
14-cv-00177WF

n??R-T I 1-l

q/4no't'7

yage 19 oI

UM/EU}'' - nvd - Drstrrct Verston 6.1

ble

t:

ht+^c.//enf nrrd rrcenrrrtq onv/coi-hin/DktRnt.nl?102364100510338-L

ly

.00

I

1-1

91412017

